<html>
<title> - CARIBBEAN DRUG TRAFFICKING: RETURN OF THE CARIBBEAN CONNECTION</title>
<body><pre>[Senate Hearing 106-1011]
[From the U.S. Government Printing Office]




                                                       S. Hrg. 106-1011

     CARIBBEAN DRUG TRAFFICKING: RETURN OF THE CARIBBEAN CONNECTION

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON CRIMINAL JUSTICE OVERSIGHT

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 9, 2000

                               __________

                          Serial No. J-106-82

                               __________

         Printed for the use of the Committee on the Judiciary

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
73-139                     WASHINGTON : 2001


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire
             Manus Cooney, Chief Counsel and Staff Director
                 Bruce A. Cohen, Minority Chief Counsel
                                 ------                                

               Subcommittee on Criminal Justice Oversight

                STROM THURMOND, South Carolina, Chairman
MIKE DeWINE, Ohio                    CHARLES E. SCHUMER, New York
JOHN ASHCROFT, Missouri              JOSEPH R. BIDEN, Jr., Delaware
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               PATRICK J. LEAHY, Vermont
                     Garry Malphrus, Chief Counsel
                    Glen Shor, Legislative Assistant


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page
DeWine, Hon. Mike, a U.S. Senator from the State of Ohio.........     2
Leahy, Hon. Patrick a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    26
Thurmond, Hon. Strom, a U.S. Senator from the State of South 
  Carolina.......................................................     1

                               WITNESSES

Shkor, John E., Vice Admiral, Commander, Coast Guard Atlantic 
  Area, prepared statement.......................................     4
Varrone, John C., Acting Deputy Assistant Commissioner, Office of 
  Investigations, U.S. Customs Service...........................    18
Vigil, Michael S., Special Agent in Charge, Caribbean Field 
  Division, Drug Enforcement Administration, U.S. Department of 
  Justice, prepared statement....................................    10

                                APPENDIX
                         Questions and Answers

Responses of John E. Shkor to Questions from Senator Thurmond....    33
Responses of John E. Shkor to Questions from Senator DeWine......    36
Responses of Michael S. Vigil to Questions from Senator Thurmond.    36
Responses of John C. Varrone to Questions from Senator Thurmond..    43

 
     CARIBBEAN DRUG TRAFFICKING: RETURN OF THE CARIBBEAN CONNECTION

                              ----------                              


                          TUESDAY, MAY 9, 2000

                               U.S. Senate,
        Subcommittee on Criminal Justice Oversight,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Strom 
Thurmond (chairman of the subcommittee) presiding.
    Also present: Senator DeWine.

 OPENING STATEMENT OF HON. STROM THURMOND, A U.S. SENATOR FROM 
                  THE STATE OF SOUTH CAROLINA

    Senator Thurmond. The subcommittee will come to order.
    Today's hearing is concerned with the increasing use of the 
Caribbean by narcotics trafficking organizations as a 
transshipment point for smuggling drugs, primarily cocaine and 
heroin, into the United States.
    Without question, the illicit drug trade has a devastating 
effect not only on the United States, but also on those 
countries that are being used as transit points. Puerto Rico's 
murder rate, much of it drug related, is reported to be the 
highest in the United States or its possessions. Jamaican and 
Dominican drug gangs are renowned for their unrestrained use of 
violence to further their goals, and the drug trade has fueled 
growing corruption of police forces and government officials in 
these transit countries.
    To add some context to this hearing, the Caribbean used to 
be the favored route of smugglers, but as the United States 
focused its counter-drug efforts on this region, the narcotics 
traffickers shifted their efforts to our Southwest border 
region. In response to this, we also shifted considerable 
enforcement resources and efforts to the border.
    However, the drug cartels and other traffickers are dynamic 
and innovative, constantly changing their routes and methods to 
exploit any potential weakness. Today, the entire Caribbean is 
becoming an increasingly attractive avenue for trafficking and 
is the second major conduit for contraband. Interagency studies 
and intelligence sources indicate that detected smuggling 
attempts in the Caribbean are up--I repeat--up 30 percent since 
1998, and it is estimated that 33 percent of the total amount 
of cocaine smuggled into the United States last year came 
through the Caribbean.
    Given the expanse of water, the seemingly countless 
islands, and the instability of a number of nations in the 
Caribbean, drugs are easily smuggled through the region. 
Traffickers using cargo ships, private aircraft, and go-fast 
boats are moving literally tons of cocaine and heroin out of 
South America, through the Caribbean, and into the United 
States.
    Particularly disturbing is the prominent role which Puerto 
Rico has taken in drug smuggling. Traffickers are eager to get 
drugs onto Puerto Rico, for once their illicit cargo is on that 
island it can be hidden among legitimate cargo bound for the 
United States and will never have to pass U.S. customs 
examinations and inspections.
    Long before the explosion in drug trafficking, the 
Caribbean was famous for being the home of offshore banks. The 
lax banking regulations in several of the Caribbean nations had 
made this part of the world attractive as a major drug money 
laundering center. The flow of hidden money imposes significant 
hardships on legitimate commerce, and for many Caribbean 
nations money laundering creates financial volatility.
    Clearly, the increased use of the Caribbean as a pipeline 
for drugs bound for the United States represents a disturbing 
trend and a serious threat to our Nation. Even more clearly, we 
must refocus enforcement and interdiction efforts on this 
region and find ways to increase cooperation amongst domestic 
law enforcement organizations and between American law 
enforcement agencies and their counterparts in the Caribbean.
    We are fortunate to have a distinguished and honorable 
panel testifying before us today: Michael Vigil, Special Agent 
in Charge of the Caribbean Field Division of the DEA; John 
Varrone, Acting Deputy Assistant Commissioner with the Office 
of Investigation for the U.S. Customs Service; and Vice Admiral 
John Shkor, Commander of the Coast Guard Atlantic Area.
    These witnesses represent the agencies that are leading our 
efforts to stem the flow of narcotics through the Caribbean, 
and I am certain their testimony will be enlightening and 
educational. Gentlemen, we appreciate your appearing before us 
today. Before we get started, I would like to say for the 
record that we appreciate all your hard work. There are few 
professions more demanding and dangerous than law enforcement, 
and I commend each of you for your hard work, selfless efforts, 
and dedication to serving the Nation.
    Would you like to make a statement?

STATEMENT OF HON. MIKE DeWINE, A U.S. SENATOR FROM THE STATE OF 
                              OHIO

    Senator DeWine. Mr. Chairman, thank you very much. I want 
to congratulate you for holding this hearing. It is very 
important that we focus on what is going on in the Caribbean 
region in regard to drug trafficking and drug transit coming 
into this country.
    We do have a drug crisis in this country, as you have 
pointed out, Mr. Chairman, and it is largely a result of the 
abundant supply of drugs that originate many times inColombia 
and that enter our country from transit points in the Caribbean.
    The fact is that when drugs are readily available because 
they cross our borders and end up on our streets, Americans, 
usually our children, too often end up using them. To be 
effective, our drug control strategy needs to be a coordinated 
effort, a coordinated effort that directs and balances 
resources and support among three key areas: domestic law 
enforcement; international eradication and interdiction 
efforts; and demand reduction, treatment, and education.
    I believe, Mr. Chairman, that part of our problem in the 
last few years is our anti-drug strategy has become inbalanced. 
We have not put enough resources into international 
interdiction. We began to change that recently, but we need to 
reexamine exactly where we are and exactly what is going on in 
the Caribbean.
    Because of the lack of emphasis on stopping drugs before 
they reach our borders, drug traffickers prey upon weak 
nations, weak nations unable to combat the strength and power 
of the illicit drug trade. That is why the Caribbean remains a 
prime enabler for a majority of the illicit drugs that make 
landfall into the United States.
    One example is Haiti. We all know that the situation in 
Haiti is a mess. Because of the island's weak political and 
economic condition, Haiti has become increasingly attractive to 
international drug traffickers. According to a U.S. Government 
Interagency Assessment on Cocaine Movement, in 1996 between 5 
and 8 percent of the cocaine coming into the United States 
passed through Haiti. But also according to that same study, by 
1998 the amount jumped to nearly 20 percent.
    And let me just say based on my own experiences in 
traveling to Haiti on many occasions, I think it is probably 
impossible for us to tell what is going through Haiti. But the 
estimates are frightening.
    I think we must recognize that Haiti's growing popularity 
as a lane of choice on the drug trafficking highway is linked 
to the continued political, economic, and legal instability 
that continues to plague that country. The transit of drugs in 
Haiti represents a serious threat to an already very fragile 
democracy. If Haiti's current political vacuum is filled by 
drug cartels and drug dealers, that democracy may collapse, and 
we must not let this happen.
    Mr. Chairman, in 1998 I came back from a trip to the region 
convinced that unless we increase our investment in drug 
interdiction, we risk losing the Caribbean to organized crime 
and drug trafficking. As a result, we in Congress addressed 
this concern with the passage of the Western Hemisphere Drug 
Elimination Act. This Act is a $2.7 billion, 3-year bipartisan 
plan to increase our investment in international eradication, 
interdiction, and crop alternatives.
    As a result of our initial investment of $844 million for 
international drug control and interdiction in fiscal year 
1999, we made significant gains in stemming the flow of illicit 
drugs into our country. For instance, the U.S. Coast Guard 
seized a record amount of cocaine in fiscal year 1999--111,689 
pounds.
    However, Mr. Chairman, sadly, the administration has not 
put significant emphasis on drug interdiction. Sadly, we have 
not in the past year put enough resources into this bill. I 
think it is our obligation this year to revisit this issue to 
see exactly where we are, and I would hope, Mr. Chairman, that 
after we do that, we will resolve as a Congress to put 
additional funds into the Western Hemisphere Drug Elimination 
Act. It is vitally important that we do this.
    If we are to continue having a significant impact on 
illicit drug trafficking, we must be committed to invest in the 
long term in the Coast Guard and other key agencies, such as 
Customs and the Drug Enforcement Administration. These agencies 
are America's front-line defense against drugs crossing our 
borders. We must provide them the resources necessary to 
address the illicit drug threat.
    Mr. Chairman, I want to again thank you for holding this 
hearing, and I want to thank our three witnesses. I look 
forward to their testimony.
    Thank you, Mr. Chairman.
    Senator Thurmond. Thank you very much.
    Panel one: Vice Admiral John E. Shkor.
    Vice Admiral Shkor. Good morning, Mr. Chairman.
    Senator Thurmond. Glad to have you with us.
     Mr. Michael S. Vigil, glad to have you with us.
    Mr. Vigil. Good morning, Senator.
    Senator Thurmond. Mr. John C. Varrone, glad to have you 
with us.
    Mr. Varrone. Thank you, sir.
    Senator Thurmond. You may proceed.

  PANEL CONSISTING OF VICE ADMIRAL JOHN E. SHKOR, COMMANDER, 
 COAST GUARD ATLANTIC AREA, PORTSMOUTH, VA; MICHAEL S. VIGIL, 
    SPECIAL AGENT IN CHARGE, CARIBBEAN FIELD DIVISION, DRUG 
  ENFORCEMENT ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE, SAN 
JUAN, PUERTO RICO; AND JOHN C. VARRONE, ACTING DEPUTY ASSISTANT 
 COMMISSIONER, OFFICE OF INVESTIGATIONS, U.S. CUSTOMS SERVICE, 
                         WASHINGTON, DC

            STATEMENT OF VICE ADMIRAL JOHN E. SHKOR

    Vice Admiral Shkor. I am Vice Admiral John Shkor, Commander 
of the Coast Guard Atlantic Area. Thank you for the opportunity 
to appear before you today to discuss the Coast Guard's efforts 
against the drug smuggling problem in the Caribbean.
    With your permission, I ask that my formal statement be 
accepted for the record and that I offer a summary at this 
time.
    Senator Thurmond. Without objection, so ordered.
    Vice Admiral Shkor. The Coast Guard is the lead agency for 
maritime drug interdiction and shares lead agency 
responsibility for air interdiction with the Customs Service. 
We are on the front line daily in the maritime drug 
interdiction fight, facing an opponent who is well financed and 
ruthless.
    According to interagency figures, in calendar year 1999, 
512 metric tons of cocaine flowed from source countries, 
primarily Colombia, en route to the U.S. market. Our role is 
against smugglers operating in the transit zone, and our goals 
come from the National Drug Control Strategy. Goal 4 requires 
us to shield America's frontiers from illegal drugs, and sets 
out clear performance measures which call for us to reduce the 
rate of illicit drug flow through the transit and arrival zones 
by 10 percent in 2002 and 20 percent in 2007.
    At the same time, our national emphasis is on source zone 
operations, something that is vital to achieving our national 
supply reduction goals. The operative metaphor is we must shoot 
the archer rather than the arrows. It remains necessary, and 
the National Drug Control Strategy provides for, a balance 
which recognizes that while we fletch our arrows, prepare long 
bows and seek a place down range from which to do battle, the 
archer is killing some 15,000 of our citizens each year. We 
must sustain the shield of transit zone interdiction while 
source country programs take effect.
    The chart on my left shows the path of cocaine moving 
through the Caribbean. Last year, about half of the cocaine 
leaving South American destined for the United States was 
shipped through the Caribbean transit zone. About 90 percent of 
the cocaine flow generally goes by sea. Much of that movement 
is on go-fast boats, typically 40- to 50-foot boats with high-
horsepower outboard engines which carry more than half a ton of 
cocaine on each trip. Much of the movement of cocaine is 
carried on commercial vessels, large and small, as well.
    The highest threat axis is to Puerto Rico and nearby 
islands. The tonnage moved to Haiti is significant, but not 
quite as large. Of note is that an estimated 40 percent of the 
cocaine flow into Haiti is by way of non-commercial air and is 
currently beyond our ability to directly influence. Lesser 
amounts move to Jamaica and the western Caribbean. Indeed, the 
flow estimates for the western Caribbean have dropped in the 
past 2 years.
    Nearly all of my available counter-drug effort is focused 
on the Caribbean, amounting to nearly 90,000 cutter operating 
hours and 16,500 aircraft flight hours last year. We allocate 
60 percent of our major cutter operational time to the counter-
drug mission.
    Mr. Chairman, I thank the Congress for the supplemental 
funding for fiscal year 1999 which allowed the Coast Guard to 
initiate several programs to enhance end game capability. We 
have put the funds you provided to good use. The initial 
deployment of armed helicopters with over the horizon small 
boats has been a tremendous success. While this prototype 
operation was limited to only two helicopters deployed only a 
part of the time, six go-fast boats were detected and six were 
stopped--much better than one out of six, as is the case 
without this capability.
    Senator DeWine, none of this would have been possible 
without your interest in our Nation's drug problem. You were a 
sponsor of the Western Hemisphere Drug Elimination Act. The 
supplemental funding which followed has translated into 
tangible improvements in the Coast Guard's ability to catch 
smugglers and seize drugs. The equipment you enabled us to 
deploy made last year a record for the Coast Guard, some 51 
metric tons seized, and we are ahead of that pace this year 
with 34 metric tons seized. Speaking on behalf of Coast Guard 
men and women who have put those tools to use, a sincere thank 
you.
    Roughly one-fourth of all cocaine entering the United 
States comes via the 110-mile-long island of Puerto Rico. My 
primary counter-drug focus in Atlantic Area for the upcoming 
year will be on Puerto Rico, with a secondary focus on Haiti. 
Cocaine flow into Puerto Rico has doubled over the past three 
years. Part of this increase can be attributed to a secondary 
movement of cocaine first delivered to Haiti and then 
transported westward.
    You can see from this second chart that while the amount 
seized by interagency efforts has risen, the percentage of that 
amount as compared to the flow has decreased. The end result is 
that significantly more drugsare successfully arriving in 
Puerto Rico for further transport to the mainland United States.
    Senator, I see a red light. Should I stop? I see a red 
light, sir. Should I stop or continue with my statement, 
Senator?
    Senator Thurmond. Yes, proceed.
    Vice Admiral Shkor. Reduction in cocaine movement during 
1997 and 1998 was the result of a surge in operations by the 
Coast Guard under Operation Frontier Shield and a surge by the 
Customs Service under Operation Gateway. It is extremely 
regrettable that because of resource limitations, neither 
agency has been able to sustain that level of effort over time.
    The Coast Guard is working with other members of the 
Federal law enforcement community in Puerto Rico to develop a 
systemic approach to attacking this reemerging threat. The U.S. 
interdiction coordinator some months ago asked that the Federal 
law enforcement community in Puerto Rico look at how it could 
respond to the resurgence of cocaine movement.
    I am pleased to report that my partner at the table, Mr. 
Mike Vigil, is coordinating this effort through the Puerto Rico 
HIDTA Executive Committee, of which he is chairman. We need to 
dismantle smuggling organizations moving cocaine through Puerto 
Rico. We need to cut the annual tonnage of cocaine moving 
through Puerto Rico from something over 100 metric tons to 
something under 50 metric tons and keep it there. We need to 
regain control of our own backyard.
    I would like to speak to Haiti briefly. When we focus on 
Haiti, we must recognize the realities of our limitations 
operating in and around there. These limitations result in an 
extremely unfavorable operating environment, particularly on 
the ground. We do not yet have the fundamentals of law 
enforcement that we do in Puerto Rico, or even as is found in 
most of the Caribbean nations with which we partner. This chart 
shows that reality. U.S. law enforcement seizes 23 percent of 
the cocaine moving into and through the Puerto Rico op area, 
while only 4 percent of the cocaine moving to Haiti is seized.
    The most effective means we have of addressing cocaine 
movement into Haiti is to remove the incentive to the 
trafficking organization. We suspect that a significant amount 
of cocaine moves from Haiti to Puerto Rico, just as a 
significant amount moves to south Florida. Attacking that 
secondary flow effectively would reduce the attractiveness of 
Haiti to smuggling organizations.
    The appropriate strategy to address Haiti from our 
perspective, then, takes three parts. First, we need to attack 
the secondary flow into Puerto Rico with a closely coordinated 
interagency response that maximizes the effect of combined 
resources. This should involve land-based operations supporting 
our partners in the Dominican Republic whose western border is 
with Haiti, as well as maritime operations dealing with the 
movement by sea. Land-based operations in Haiti itself seem 
problematic for the time being. If the post-election situation 
in Haiti results in a more favorable operating environment, 
that should be pursued as well.
    Second, we need to sustain the highly effective Operation 
Riversweep that the Customs Service leads and which is 
supported by the rest of us to support the secondary flow into 
south Florida.
    Third, we need to persuade Venezuela to open their air 
space to United States tracker aircraft to enable end-game 
effectiveness against smugglers now delivering cocaine to Haiti 
by air. Our Colombian counterparts have demonstrated a 
willingness and a capability to deal effectively with smuggling 
aircraft when we can maintain track back into Colombia. 
Smugglers exploit Venezuelan policies by flying through 
Venezuelan air space on their way back to Colombia. It 
functions like a pick in basketball, scrubbing the defender off 
the man with the ball. And as a result, they are able to 
reenter Colombia with impunity.
    Senators, let me thank you again for the opportunity to 
appear and present a Coast Guard view. Your ongoing interest 
and legislation you have sponsored have made significant 
improvements in the Nation's ability to protect itself from 
drugs. I look forward to answering your questions.
    Senator Thurmond. Thank you very much.
    [The prepared statement of Vice Admiral Shkor follows:]

            Prepared Statement of Vice Admiral John E. Shkor

    Good morning, Mister Chairman and distinguished members of the 
Subcommittee. I am Vice Admiral John Shkor, Commander of the Coast 
Guard Atlantic Area. Thank you for the opportunity to appear before you 
today to discuss the Coast Guard's efforts with regard to the Drug 
Smuggling Problem in the Caribbean.
    The Coast Guard is the lead agency for maritime drug interdiction 
and shares lead agency responsibility for air interdiction with the 
Customs Service. As the only Armed Service with law enforcement 
authority, and the only Federal agency with broad enforcement authority 
on the high seas, the Coast Guard is on the front line daily in the 
maritime drug interdiction fight. Our opponent is well-financed, agile, 
and ruthless in pursuing his single-minded purpose. Illegal drugs thus 
remain a scourge on our society, and continue to pose a significant 
enforcement challenge. According to the Interagency Assessment of 
Cocaine Movement, in calendar year 1999, 512 metric tons of cocaine 
flowed from source countries--primarily Colombia--en route to the 
United States market.

                          THE COAST GUARD ROLE

    The National Drug Control Strategy calls for a balanced array of 
demand and supply reduction programs. The Coast Guard provides crucial 
law enforcement essential to reducing supply. However, supply reduction 
requires both source and transit zone operations. Emphasis on Source 
Zone operations is, of course, vital to achieving our national goals. 
The operative metaphor, as I understand it, is that, ``We must shoot 
the archer, rather than the arrows.''
    The Coast Guard's role with respect to maritime and air operations 
is against smugglers operating in the Transit Zone. From that 
perspective I want to review my goals, which come from the National 
Drug Control Strategy. Goal Four requires us to shield America's 
frontiers from the scourge of drugs, and sets out clear performance 
measures. Those measures call for us to reduce the rate of illicit drug 
flow through Transit and Arrival Zones by 10 percentage points by 2002 
and 20 percentage points by 2007 as measured against the 1996 base 
year.
    Our transit zone interdiction operations are, of course, a 
necessity. They provide a balance to source zone operations that 
recognizes we must sustain the interdiction shield in the transit zone 
until that archer in the source zone can be permanently stopped.
    In the Transit Zone, we must maintain a credible presence in high-
threat areas, assign assets to respond to all actionable information, 
and conduct combined operations with our foreign law enforcement 
counterparts. These activities involve both surface and air assets. In 
addition, we must maintain an agile and flexible end-game capability 
that is credible and able to respond to intelligence cueing. We have 
taken steps to improve our end-game capability with initiatives such as 
Deployable Pursuit Boats, Maritime Interdiction Support Vessels, and 
Operation NEW FRONTIER, which includes Airborne Use of Force and Over-
the-Horizon cutter boats.

                             CURRENT THREAT

    In calendar year 1999, more than 40 percent of the cocaine detected 
leaving South America destined for the United States was shipped 
through the Caribbean Transit Zone. About 90 percent of the cocaine 
flow moves by maritime means, and in the Caribbean, over 80 percent of 
the time the traffickers' choice of conveyance is by ``go-fasts''--
typically 30- to 50-foot, multi-engine boats which carry 500 to 1,500 
kilograms of cocaine in each trip. This method of conveyance is agile 
and responsive to smugglers' changing needs, and poses a significant 
challenge for our slower and less maneuverable vessels. Clearly then, 
the Caribbean Transit Zone requires significant attention and a focused 
application of concerted effort.
    In the Caribbean Transit Zone, the highest threat region is Puerto 
Rico, followed by Haiti, then Jamaica, and the Western Caribbean. While 
we are maintaining some Coast Guard presence in the waters around 
Haiti, we see that around 40 percent of the cocaine transshipment 
activity into Haiti is via non-commercial air and is currently beyond 
Coast Guard Atlantic Area's ability to influence. The Drug Enforcement 
Administration and Joint Interagency Task Force East are studying this 
issue under the direction of the U.S. Interdiction Coordinator.

                             CURRENT EFFORT

    Based on the threat, nearly all of my available counterdrug effort 
is focused on the Caribbean Transit Zone. In fiscal year 1999, nearly 
90,000 cutter operating hours, and over 16,000 aircraft flight hours 
were applied against the Caribbean threat, amounting to nearly one-
third of the hours available from these assets for all missions within 
Coast Guard Atlantic Area.
    We continue to seek innovative solutions in expanding our efforts 
in the transit zone. Operation New Frontier--the Use of Force from 
Aircraft combined with Over-the-Horizon cutter boats using night vision 
goggles, has been a tremendous success, stopping all six of the go-
fasts engaged. The Maritime Interdiction Support Vessel has sailed to 
the Caribbean with Deployable Pursuit Boats that can match and exceed 
the speed of the smugglers' go-fasts. And we have been able to upgrade 
aircraft sensor packages to improve our ability to acquire and track 
smuggling vessels.
    I thank the Congress for its support in funding our new 87-foot 
Coastal Patrol Boat fleet. That initiative has allowed us to reposition 
the homeports of a number of our more capable 110-foot Patrol Boats 
further south to place them closer to the counterdrug threat, reducing 
patrol transit time and resulting in more ``steel on target.''
    We continue to negotiate a series of bi-lateral maritime 
counterarcotics agreements with foreign governments to enable more 
effective and efficient coordination with interdiction forces. A 
tribute to the success of these efforts is the recent signing of an 
agreement with the government of Honduras, bringing the total number of 
bi-lateral agreements withTransit Zone nations to twenty-two. These 
agreements help maximize the effectiveness of our cutters by reducing 
the time they spend waiting for authorization to either board suspect 
vessels or to enter the territorial seas of signatory nations in 
pursuit of suspect trafficking vessels. The Caribbean Support Tender, 
that the Administration requested and Congress authorized, has already 
begun its work of providing maintenance and logistics support in the 
Eastern and Central Caribbean to lay the groundwork for improved 
performance by their regional maritime services. Our multilateral 
efforts have made significant progress toward effective cooperation 
with our Caribbean neighbors who are working with us to deny safe 
havens to drug smugglers who routinely violate the national sovereignty 
of these nations.
    Last year, with my full encouragement and support, the U.S. 
Interdiction Coordinator made a decision to raise the priority of 
counterdrug efforts against the movement of cocaine in the Eastern 
Pacific. Joint Interagency Task Forces East and West, and Coast Guard 
Pacific Area, made a number of record seizures and proved that effort 
effective. Thus, we have demonstrated effective interdiction can be 
accomplished in both oceans.

                              FUTURE FOCUS

    My primary counterdrug focus in Atlantic Area for the upcoming 
years is on Puerto Rico, where the smuggling infrastructure is well 
developed, entrenched, and historically successful. Roughly half of all 
cocaine flow to the U.S. in 1999 came through the Caribbean. About half 
of that Caribbean flow is destined for Puerto Rico. Therefore, one-
fourth of all cocaine destined for the United States is being shipped 
via the 110-mile long island of Puerto Rico. The utility of this route 
to the smugglers is evident by the fact that although we have been more 
effective seizing drugs along this route than any other route in the 
Caribbean, it is still the route with the highest flow.
    Cocaine flow into Puerto Rico, the U.S. Virgin Islands, and their 
approaches has increased nearly threefold over the past two years. 
While the amount seized by interagency efforts has risen, the 
percentage of that amount compared to the flow has decreased slightly. 
The end result of these two factors is that significantly more drugs 
are successfully arriving in Puerto Rico for further transport to the 
mainland United States.
    The profit margin in drug smuggling is high--indeed, the smugglers 
treat their quarter-million dollar go-fast boats as consumable items--
and the smugglers' long-term transit strategy appears robust enough to 
survive periodic shifts in routes. As such, the drug trafficking 
organizations will continue to successfully operate if we simply repeat 
history and cause them to shift between Haiti and Puerto Rico. Credible 
law enforcement actions must disrupt the transportation and 
distribution of cocaine--forcing them to abandon that route. We are 
working with the Interagency to develop a systematic approach to attack 
this re-emerging threat and to collectively force smugglers away from 
Puerto Rico with a desired result of cutting the Puerto Rican 
throughput in half. As mentioned earlier, the traffickers' 
infrastructure in Puerto Rico is well established and increasing at sea 
interdictions alone will not result in long-term behavioral changes. 
Our focus is to engage in cooperative interagency efforts to achieve 
breakthrough-level results, through linking interdiction and 
investigation to permanently dismantle smuggling organizations.
    As our efforts over time are successful in this regard we would 
expect a shift to Haiti and Jamaica as smuggling activity in Puerto 
Rico becomes prohibitively risky to traffickers. Thus we also need to 
support continued interagency planning to deal with increased smuggling 
through Haiti and Jamaica. We must be quick to shift to the emerging 
threat, while remaining mindful that any time traffickers sense a 
lessened resistance in Puerto Rico, they will return to that preferred 
route.
    To deal with cocaine movement into Haiti we are trying to remove 
the reason for the trafficking organizations to ship it there in the 
first place. Most of the secondary flow from Haiti goes to Puerto Rico, 
a part of the U.S. Customs Zone, and to a lesser extent, to southern 
Florida. By attacking that secondary flow effectively, I believe we can 
reduce the primary flow into Haiti.
    The appropriate tactical strategy position to address Haiti then 
takes three parts. First, attack the secondary flow into Puerto Rico 
with a closely coordinated interagency response that maximizes the 
effect of combined resources. Second, sustain the highly effective 
Miami River Operation to reduce the secondary flow into southern 
Florida via Haitian coastal freighters. And third, influence Venezuela 
to open their airspace to United States tracker aircraft to enable 
effective end-games against the aircraft currently delivering cocaine 
to Haiti and returning home with virtual impunity.

                             BUDGET SUPPORT

    Congressional support of the President's fiscal year 2001 budget 
request is essential for the Coast Guard's Deepwater Capability 
Replacement Project. Without it, the Coast Guard's ability to 
contribute to national drug interdiction efforts in the long-term, as 
well as meet the demands of our many other missions that protect the 
interests of the United States on the high seas, will be significantly 
impeded as our major assets face obsolescence and retirement over the 
next twenty years. Our fiscal year 2001 budget provides for investments 
in the use of aviation assets, and force multipliers such as deployable 
law enforcement detachments, intelligence collection, and international 
engagement. We need your continued support.

                               CONCLUSION

    The record seizures the Coast Guard has enjoyed this part year are 
noteworthy and commendable, but they do not tell the whole story. 
Increased cocaine flow challenges us each and every day. Your support 
has enabled us to begin to close the gap through improved sensors and 
equipment, and to increase Coast Guard and interagency end-game 
effectiveness. More remains to be done.
    To achieve the goals of the National Drug Control Strategy, we must 
have the right arrows in our quiver--arrows that can be loosed in the 
counterdrug fight without diminishing our ability to carry out our 
assigned missions. The Deepwater Recapitalization Project will address 
our operational capital needs for the future. Operational enhancements 
and readiness-related budget initiatives within the President's budget 
will provide us enhanced capabilities and will permit the most 
effective use of resources for all our missions.
    The Office of National Drug Control Policy estimates that annual 
illegal drug profits are nearly ten times the Coast Guard's annual 
budget, and we know they are using that ill gotten gain to invest in 
current and future operations against our national interests. We have 
the talent, expertise, and technology to deliver extraordinary 
interdiction results--what we need are resources equal to the job 
ahead. Funding the Coast Guard at levels requested by the President 
will permit us to deliver what is needed in this fight.
    Thank you for your support and for the opportunity to discuss this 
important issue with you today. I will be happy to answer any questions 
you may have.

    Senator Thurmond. We would be glad to hear from you.

                 STATEMENT OF MICHAEL S. VIGIL

    Mr. Vigil. Mr. Chairman, members of the subcommittee, I 
appreciate the opportunity to appear today to discuss the issue 
of drug trafficking throughout the Caribbean. I would first 
like to thank the subcommittee for its continued support of the 
Drug Enforcement Administration and overall support of drug law 
enforcement.
    As you are all aware, the international drug syndicates 
operating throughout our hemisphere are resourceful, adaptable, 
and extremely powerful. These syndicates have an unprecedented 
level of sophistication and are more powerful and influential 
than any of the organized crime enterprises preceding them. The 
leaders of these drug trafficking organizations oversee a 
multi-billion-dollar cocaine and heroin industry which has 
wreaked havoc on communities throughout the United States.
    Over the last two decades, cocaine trafficking over the 
United States southern border has shifted between the Southwest 
border and the south Florida-Caribbean corridor. In the 1980's, 
most of the cocaine that entered the United States transited 
the Caribbean and south Florida. With increased law enforcement 
pressure, the South American cartels eventually built new 
alliances with criminals in Mexico in order to gain access to 
their long-established smuggling routes into the United States.
    The Colombian drug cartels turned increasingly to the 
Southwest border in the 1990's. By June 1996, approximately 70 
percent of the cocaine in the United States transited Mexico, 
prompting the United States to concentrate its law enforcement 
resources on the Southwest border. Today, five years into the 
Southwest Border Initiative, drug trafficking is once again 
increasing in and through the Caribbean-south Florida corridor.
    For purposes of this hearing, I will provide an overview 
and assessment of the drug trafficking situation in the 
Caribbean, then specifically address drug-related issues in 
Puerto Rico and Haiti. In concluding, I will briefly discuss 
some recently concluded joint law enforcement operations and 
initiatives in the region.
    The Caribbean has long been an important transit zone for 
drugs entering the United States and Europe from South America. 
These drugs are transported through the region to both the 
United States and Europe through a wide variety of routes and 
methods. The primary method for smuggling large quantities of 
cocaine through the Caribbean to the United States is via 
maritime ships. Go-fast boats, small launches with powerful 
motor; bulk cargo freighters; and containerized cargo vessels 
are the most common conveyances for moving large quantities of 
cocaine through the region.
    The Caribbean also plays an important role in drug-related 
money laundering. Many Caribbean countries have well-developed 
offshore banking systems and bank secrecy laws that facilitate 
money laundering. In countries with less developed banking 
systems, money is often moved through these countries in bulk 
shipments of cash, the ill-gotten proceeds of selling illicit 
drugs in the United States.
    The ultimate destination of the currency and/or assets is 
other Caribbean countries or South America. Presently, many 
international drug trafficking organizations utilize Puerto 
Rico as a major point of entry for the transshipment of multi-
ton quantities of cocaine being smuggled into the United 
States. Puerto Rico has become known as a gateway for drugs 
destined for cities on the East Coast of the United States.
    Puerto Rico's 300-mile coastline, the vast number of 
isolated cays, and 6 million square miles of open water between 
the U.S. and Colombia, make the region difficult to patrol and 
ideal for a variety of smuggling methods. Only 360 miles from 
Colombia's north coast and 80 miles from the east coast of the 
Dominican Republic, Puerto Rico is easily reachable by twin-
engine aircraft hauling payloads of between 500 to 700 
kilograms of cocaine.
    The go-fast boats make their round-trip cocaine runs to the 
southern coast of Puerto Rico in less than a day. Today, 
cocaine and heroin traffickers from Colombia have transformed 
Puerto Rico into the largest staging area in the Caribbean for 
illicit drugs destined for the U.S. market. This situation has 
aided in the creation of a public safety crisis in Puerto Rico. 
This crisis has resulted in difficulties retaining Federal drug 
enforcement personnel in the Commonwealth of Puerto Rico.
    Few personnel from the continental United States are 
willing to accept a transfer to Puerto Rico, and those who do 
so often want to leave soon after arrival. Such quality of life 
issues as independent public services, unreliable utilities, 
limited accessibility of medical care, the high cost of living, 
an exclusionary social structure, limited availability of 
appropriate schools for dependent children, and the high 
incidence of crime have contributed to early turnover and 
family separations. As a result, DEA has in place several 
incentive packages for special agents, diversion investigators, 
and intel analysts relocating to Puerto Rico.
    Just under 130 miles from Colombia's most northern point 
and 80 miles from Puerto Rico, the island of Hispaniola is 
easily by twin-engine aircraft hauling payloads, again, of 
between 500 to 700 kilograms of cocaine. The two countries on 
the island, Haiti and the Dominican Republic, share similar 
coastal features, facilitating intra-island boat traffic.
    Just as is the case with the Dominican Republic, Haiti 
presents an ideal location for the staging and transshipment of 
drugs. Furthermore, there is no border control between the two 
countries, allowing essentially unimpeded traffic back and 
forth. In addition, there is no effective law enforcement or 
judicial system in Haiti, so there are few legal impediments to 
drug trafficking.
    Recently, DEA has significantly increased manpower in 
Haiti, and increased interdiction efforts to counter air drops 
and identify freighter shipments. However, recent statistics 
released by the Interagency Assessment on Cocaine Movement, in 
which the DEA participates, indicates that approximately 15 
percent of the cocaine entering the United States transits 
either Haiti or the Dominican Republic. DEA is represented on 
the island of Hispaniola by the Port-au-Prince country office 
in Haiti and the Santo Domingo country office in the Dominican 
Republic.
    Due to the lack of an integrated, cohesive intelligence 
support network, the Caribbean Field Division created UNICORN, 
which stands for the Unified Caribbean Online Regional Network. 
With this system, participating Caribbean law enforcement 
agencies can share photographs, data, and information 
concerning various targets, locations, and groups involved in 
drug trafficking and money laundering. The Drug Enforcement 
Administration loans the equipment to participating agencies 
and provides training to host country counterparts, as well as 
installing and implementing the system.
    The UNICORN system has already reaped tremendous benefits, 
as exhibited in the success of Operations Columbus, Genesis, 
and most recently Conquistador. These enforcement operations, 
planned and coordinated by the Caribbean Field Division, have 
severely disrupted drug trafficking organizations throughout 
the Caribbean region.
    For purposes of today's hearing, I would like to briefly 
comment on Operation Conquistador. Operation Conquistador was a 
17-day multinational drug enforcement operation involving 26 
countries in the Caribbean, Central and South America. The 
operation was simultaneously launched on March 10, 2000, in 
Panama, Colombia, Venezuela, Bolivia, Ecuador, Suriname, 
Trinidad and Tobago, Montserrat, Dominica, St. Kitts, Nevis, 
Antigua, Anguila, St. Martin, British Virgin Islands, Barbuda, 
Grenada, Barbados, St. Vincent, St. Lucia, Aruba, Curacao, 
Jamaica, Haiti, the Dominican Republic, and the Commonwealth of 
Puerto Rico.
    The primary objective of Conquistador was to develop an 
effective regional strategy intended to disrupt drug 
trafficking activities and criminal organizations operating 
throughout the Caribbean. Command and control of the operation 
was executed from the DEA Caribbean Field Division in San Juan, 
Puerto Rico, with forward operating command posts in Trinidad 
and Tobago and the Dominican Republic.
    The U.S. Coast Guard provided an expanded presence of 
interdiction assets throughout the Caribbean, and executed air 
and maritime command and control of sea and airborne drug 
interdiction assets from all countries. The Bureau of Alcohol, 
Tobacco and Firearms conducted traces of all seized weapons. 
The operation concluded on March 26, 2000.
    Although the arrests and seizures in Operation Conquistador 
were extremely impressive, they were secondary to the 
cooperation and coordination among the 26 countries that 
participated in this endeavor. Despite limited resources and 
infrastructure in many of the countries, all responded with 
notable efforts and results. Throughout the duration of the 
operation, all participants exchanged information with each 
other through the UNICORN system.
    In conclusion, we have discovered that the transit of 
illegal drugs throughout the Caribbean creates unique 
challenges to law enforcement. DEA is aggressively addressing 
the drug trafficking threat and working to improve the ability 
of DEA personnel assigned to the region to confront the threat. 
In addition, DEA will continue to assist and support our 
Caribbean counterparts in the counter-drug arena.
    With the recent successes of the law enforcement 
initiatives I detailed earlier, cooperation among the DEA and 
the island nations in the region are continually progressing. 
We must sustain this cooperative effort to effectively identify 
and target the drug trafficking organizations operating 
throughout the Caribbean.
    Mr. Chairman, thank you for the opportunity to appear 
before this subcommittee. I appreciate the interest you and the 
subcommittee have shown in DEA's drug law enforcement efforts 
in the Caribbean. At this time, I will be happy to answer any 
questions you or any other committee members may have.
    Thank you.
    Senator Thurmond. Thank you very much.
    [The prepared statement of Mr. Vigil follows:]

                 Prepared Statement of Michael S. Vigil

    Mr. Chairman, Members of the Subcommittee: I appreciate the 
opportunity to appear today to discuss the issue of drug trafficking 
throughout the Caribbean. I would first like to thank the Subcommittee 
for its continued support of the Drug Enforcement Administration (DEA) 
and overall support of drug law enforcement.
    As all of you are aware, the international drug syndicates 
operating throughout our hemisphere are resourceful, adaptable and 
extremely powerful. These syndicates have an unprecedented level of 
sophistication and are more powerful and influential than any of the 
organized crime enterprises preceding them. Traditional organized crime 
syndicates, operating within the United States over the course of last 
century, simply cannot compare to the Colombian and Mexican drug 
trafficking organizations functioning in this hemisphere. These drug 
trafficking organizations have at their disposal an arsenal of 
technology, weapons and allies, corrupted law enforcement, and 
government officials enabling them to dominate the illegal drug market 
in ways not previously thought possible. The leaders of these drug 
trafficking organizations oversee a multi-billion dollar cocaine and 
herein industry which have wreaked havoc on communities throughout the 
United States.
    Over the last two decades, cocaine trafficking over the United 
States' southern border has shifted between the Southwest border and 
the South Florida/Caribbean corridor. In the 1980s, most of the cocaine 
that entered the United States transited the Caribbean and South 
Florida. With increased law enforcement pressure, the South American 
cartels eventually built new alliances with criminals in Mexico in 
order to gain access to their long-established smuggling routes in the 
United States.
    The Colombian drug cartels turned increasingly to the Southwest 
border in the 1990s. By June, 1996 approximately 70 percent of the 
cocaine in the United States transited Mexico, prompting the United 
States to concentrate its law enforcement resources on the Southwest 
border. Today, five years into the Southwest Border Initiative, drug 
trafficking is once again increasing in and through the Caribbean/South 
Florida corridor.
    For purposes of this hearing, I will provide an overview and 
assessment of the drug trafficking situation in the Caribbean, then 
specifically address drug-related issues in Puerto Rico and Haiti. In 
concluding, I will briefly discuss some recently concluded joint law 
enforcement operations and initiatives in the Caribbean.

         TRAFFICKING THROUGH THE CARIBBEAN TO THE UNITED STATES

    The Caribbean has long been an important transit zone for drugs 
entering the United States and Europe from South America. The drugs are 
transported through the region, to both the United States and Europe, 
through a wide variety of routes and methods. The primary method for 
smuggling large quantities of cocaine through the Caribbean to the 
United States is via maritime vessels. Go-fast boats (small launches 
with powerful motors), bulk cargo freighters, and containerized cargo 
vessels are the most common conveyances for moving large quantities of 
cocaine through the region. Drug traffickers also routinely transport 
smaller quantities of cocaine from Colombia to clandestine landings 
strips in the Caribbean, using single or twin-engine aircraft. 
Traffickers also airdrop cocaine loads to waiting land vehicles and/or 
maritime vessels.
    Couriers transport smaller quantities of cocaine on commercial 
flights from the Caribbean to the United States. Couriers transport 
cocaine by concealing small multikilogam quantities of cocaine on their 
person or in baggage. Couriers also transport small quantities (up to 
one kilogram) of cocaine by ingesting the product.
    Compared to cocaine, heroin movement through the Caribbean is 
limited. Heroin is generally not consumed in the Caribbean, but rather 
is transshipped to Puerto Rico or the Continental United States. Almost 
all of the heroin transiting the Caribbean originates in Colombia. 
Couriers generally transport kilogram quantities of Colombian heroin on 
commercial flights from South America to Puerto Rico or the Continental 
United States, concealing the heroin on their person or in baggage. 
Couriers also transport smaller quantities (up to one kilogram) of 
heroin by concealing their heroin through ingestion. The couriers 
sometimes make one or two stops at various Caribbean islands in an 
effort to mask their original point of departure from law enforcement.
    Jamaica remains the only significant Caribbean source country for 
marijuana destined to the United States. Go-fast boats from Jamaica 
often transport multi-hundred kilogram quantities of marijuana through 
Cuban and Bahamian water to Florida.
    The Caribbean also plays an important role in drug-related money 
laundering. Many Caribbean countries have well-developed offshore 
banking systems and bank secrecy laws that facilitate money laundering. 
In countries with less developed banking systems, money is often moved 
through these countries in bulk shipments of cash--the ill-gotten 
proceeds of selling illicit drugs in the United States. The ultimate 
destination of the currency and/or assets is other Caribbean countries 
or South America.

                  DRUG TRAFFICKING THROUGH PUERTO RICO

    More than ever, international drug trafficking organizations 
utilize Puerto Rico as a major point of entry for the transshipment of 
multi-ton quantities of cocaine being smuggled into the United States. 
Puerto Rico has become known as a gateway for drugs destined for cities 
on the East Coast of the United States. Puerto Rico's 300-mile 
coastline, the vast number of isolated cays, and six million miles of 
open water between the U.S. and Colombia, make the region difficult to 
patrol and ideal for a variety of smuggling methods.
    Only 360 miles from Colombia's North Coast and 80 miles from the 
East Coast of the Dominican Republic, Puerto Rico is easily reachable 
by twin engine aircraft hauling payloads of 500 to 700 kilograms of 
cocaine. The ``go-fast'' boats make their round trip cocaine runs to 
the Southern coast of Puerto Rico in less than a day. Today, cocaine 
and heroin traffickers from Colombia have transformed Puerto Rico into 
the largest staging area in the Caribbean for illicit drugs destined 
for the U.S. market.
    Once the illicit narcotics are smuggled into Puerto Rico, they are 
routinely stored in secluded, mountainous areas of the island until 
transportation to the Continental United States can be arranged. The 
contraband is then repackaged into smaller shipments in preparation for 
the move. The narcotics are smuggled out of Puerto Rico via commercial 
maritime vessels and on commercial airlines, either in the possession 
of couriers, or concealed in cargo.
    Puerto Rico is an active Caribbean sea and air transportation 
thoroughfare. The island boasts the third busiest seaport in North 
America and fourteen busiest in the world, as well as approximately 75 
daily commercial airline flights to the continental United States. This 
presents an attractive logistical opportunity for drug trafficking 
organizations. The sheer volume of commercial activity is the 
trafficker's greatest asset. Criminal organizations have utilized their 
financial capabilities to corrupt mechanics, longshoremen, airline 
employees, and ticket counter agents, as well as government officials 
and others, whose corrupt practices broaden the scope of the 
trafficking.
    Not only has corruption of legitimate business become a problem on 
the island, but Colombian drug trafficking organizations will routinely 
pay local criminal transportation organizations up to 20 percent of 
their product (cocaine) for their services. This form of payment has 
acted as a catalyst for the development of a very profitable, but 
competitive, local distribution market. The interaction between 
Colombian drug traffickers and local transporters, along with the 
resulting distribution market, is commonly referred to as the ``spill-
over effect.'' The ``spill-over effect'' has resulted in an increase in 
violence and bloodshed within the Puerto Rican community. It is 
estimated that about 80 percent of all documented homicides in Puerto 
Rico are drug related. Law enforcement efforts are further impeded by 
the close-knit relationships shared by the drug trafficking 
organizations, which have developed and been fostered over the years.

                  PERSONNEL CHALLENGES IN PUERTO RICO

    The open use of the Caribbean as a narcotics transshipment center 
has created a public safety crisis in Puerto Rico, and DEA must assign 
resources to the island to address this threat. Although this is 
necessary, we have had continuing difficulties retaining federal law 
enforcement personnel in the Commonwealth of Puerto Rico. Few personnel 
from the Continental United States are willing to accept a transfer to 
Puerto Rico, and those who do so often want to leave soon after 
arrival. Such quality of life issues as inadequate public services, 
unreliable utilities, limited accessibility of medical care, the high 
cost of living, an exclusionary social structure, limited availability 
of appropriate schools for dependent children, and the high incidence 
of crime have contributed to early turnover and family separations. As 
a result, DEA has in place the following incentive packages for Special 
Agents, Diversion Investigators, and Intelligence Analysts relocating 
to Puerto Rico:
          Relocation incentives of up to 25% of base pay (not to exceed 
        $15,000) are tied directly to remaining in Puerto Rico;
          A Foreign Language Bonus Package of up to 5% of base pay;
          A Tour of Duty Office of Preference offer upon completion of 
        the assignment;
          Adminsitrative leave available to find adequate housing and 
        complete moving arrangements;
          5 year, Government funded access, in the San Juan area, to 
        Department of Defense schools (This now includes the children 
        of support personnel.);
          Additional Home Leave, granted upon extension of assignment;
          Security assistance for threatened employees, ranging from 
        home and personal automobile security systems to removal from 
        the area;
          A 10% Cost of Living adjustment; and
          Department of Defense Commissary privileges for individuals 
        on tour agreements.
    DEA is further exploring the possibility of instituting incentive 
initiatives, which are commensurate with our foreign office 
assignments. However, DEA has not yet formulated an official position 
on making Puerto Rico a foreign posting, as Puerto Rico is a 
Commonwealth of the United States. There would need to be a change in 
State Department regulations in additional to the passage of 
legislation to establish service in Puerto Rico as a foreign posting.

          HAITI: DRUG TRAFFICKING CROSSROADS OF THE CARIBBEAN

    Haiti is strategically located in the central Caribbean, occupying 
the western half of the island of Hispaniola, which it shares with the 
Dominican Republic. At 27,750 square kilometers, the country is 
slightly larger than the state of Maryland. With the Caribbean to the 
south, and the open Atlantic Ocean to the north, Haiti is an 
idealposition to facilitate the movement of cocaine and heroin from 
Colombia to the U.S. DEA is represented on the Island of Hispaniola by 
the Port-au-Prince Country office in Haiti and the Santo Domingo 
Country Office in the Dominican Republican.
    The island of Hispaniola is just under 430 miles from Colombia's 
most northern point, and easily accessible by twin engine aircraft 
hauling payloads of 500 to 700 kilos of cocaine. The two countries on 
the island, Haiti and the Dominican Republic, share similar coastal 
features, facilitating intra-island boat traffic. Just as is the case 
with the Dominican Republic, Haiti presents an ideal location for the 
staging and transshipment of drugs. Furthermore, there is effectively 
no border control between the two countries, allowing essentially 
unimpeded traffic back and forth. In addition, there is no effective 
law enforcement or judicial system in Haiti, so there are few legal 
impediments to drug trafficking. Recently, DEA has significantly 
increased manpower on Haiti (from one to seven Special Agents) and 
increased interdiction efforts to counter airdrops and identify 
freighter shipments. However, recent statistics released by The 
Interagency Assessment of Cocaine Movement (IACM), in which the DEA 
participates, indicates that approximately 15% of the cocaine entering 
the United States transits either Haiti or the Dominican Republic.
    Due to the numerous uncontrolled points of entry and internal 
instability, vast amounts of narcotics from South America arrive in 
Haiti after being transported across the porous border with the 
Dominican Republic, and then shipped on to Puerto Rico.

                TRAFFICKING ROUTES AND METHODS IN HAITI

    Drug smuggling through Haiti is aided by the country's long 
coastline, mountainous interior, numerous uncontrolled airstrips, its 
193-mile border with the Dominican Republic, and its location in the 
Caribbean. Haiti's thriving contraband trade, weak democratic 
institutions, and fledgling police force and judiciary system, 
contribute to its utilization by drug traffickers as a transshipment 
point.
    As is the case throughout much of the Caribbean, the primary method 
for smuggling cocaine into Haiti is via maritime vessels. Traffickers 
also smuggle cocaine from Colombia into Haiti via general aviation; 
either by airdrops at sea or by landing at clandestine strips. Other 
common conveyances for smuggling cocaine into Haiti include cargo 
freighters, containerized cargo vessels, fishing vessels, and couriers 
on commercial aircraft.
    As cocaine enters Haiti, it is usually stored locally until it can 
be shipped to the United States or other international markets. Cocaine 
is often smuggled out of Haiti in containerized cargo or on bulk cargo 
freighters directly to Miami. The cocaine shipments aboard cargo 
freighters are occasionally off-loaded to smaller vessels prior to 
arrival in the Continental United States (CONUS). Cocaine is also 
sometimes transferred overland from Haiti to the Dominican Republic for 
further transshipment to Puerto Rico, the CONUS, Europe, and Canada.
    There are three primary smuggling routes for cocaine through Haiti. 
The first brings cocaine from Colombia into Haiti via general aviation 
conducting airdrops at sea. The second route is from source countries, 
via Panama or Venezuela, by commercial shipping. The third route is 
from source countries, via Panama or Venezuela, in coastal or fishing 
vessels.

                 A HEMISPHERIC LAW ENFORCEMENT RESPONSE

    With the assistance of state and local partners domestically as 
well as counterparts in foreign governments, DEA works to build cases 
against, and ultimately incarcerate, the leaders of these sophisticated 
criminal syndicates as well as the underlings they send to other 
countries. Over time, this strategy serves to steadily undermine a 
criminal organization's ability to conduct business, leaving it even 
more vulnerable to law enforcement strategies. Successful cases against 
the leaders of international drug trafficking groups most often 
originate from investigations being conducted in or having a nexus to, 
the United States.
    The Caribbean Corridor poses several impediments for a successful 
law enforcement strategy. First, the traffickers' use of sophisticated 
compartments in freighters make inspections very time consuming and 
laborious. Second, the volume and variety of commercial cargo flowing 
through the Caribbean further exacerbates inspection and interdiction 
efforts. Third, the sheer vastness of the Caribbean frequently makes it 
difficult to coordinate enforcement efforts with other countries in the 
region. As such, any meaningful, effective interdiction program must 
almost exclusively depend on quality, time sensitive intelligence. What 
was needed in the Caribbean corridor was an intelligence support 
network that would effectively serve the countries in the area.
    As a result, the Caribbean Field Division, in an attempt to diffuse 
this intelligence void, created the UNICORN system (Unified Caribbean 
On-Line Regional Network). With this system, participating Caribbean 
law enforcement agencies can share photographs, data, and information 
concerning various targets, locations, and groups involved in drug 
trafficking and money laundering. The Drug Enforcement Administration 
loans the equipment to participating agencies and provides training to 
host-nation counterparts, as well as installing and implementing the 
system.
    The UNICORN system has already reaped tremendous benefits, as 
exhibited in the success of Operations Columbus, Genesis and most 
recently, Conquistador. These enforcement operations, planned and 
coordinated by the Caribbean Field Division, have severely disrupted 
drug trafficking organizations throughout the Caribbean region. The 
first of these operations, dubbed Genesis, was a bi-national initiative 
designed to foster cooperation between Haiti and the Dominican 
Republic. Due to a mutual, long-standing mistrust, Haiti and the 
Dominican Republic had never before coordinated anti-drug efforts. The 
second action, titled Operation Columbus, was a multi-national 
operation, comprised of fifteen nations and their respective law 
enforcement agencies. The final initiative, the recently concluded 
Operations Conquistador, was a multi-national regionaloperation 
designed to expand upon the successes realized in Operation Columbus. 
The following is a brief synopsis of each operation:

                           OPERATION GENESIS

    In concept, Operation Genesis was designed to foster and maintain 
cooperation between Haiti and the Dominican Republic. This operation, 
which was conducted during November 1998, resulted in 126 arrests 
throughout Haiti and the Dominican Republic. Prior to Operation 
Genesis, Haiti and the Dominican Republic had never before coordinated 
their anti-drug efforts. However, the results garnered through 
Operation Genesis will undoubtedly assist in improving the ability to 
coordinate anti-drug efforts on the island of Hispanola.
    The long-term objectives for Operation Genesis were to promote the 
exchange of information between Haiti and the Dominican Republic, 
facilitate the integration and coordination of Haitian and Dominican 
anti-drug efforts, establish a mechanism that will support the counter-
drug effort, develop institutional mentoring and training, and disrupt 
drug trafficking operations that are being conducted on the island of 
Hispanola.
    The operation was executed in both Haiti and the Dominican 
Republic, using roadblocks at strategic locations and border crossing 
points, interdiction operations at the international airports and 
seaports, and United States Coast Guard maritime interdiction along the 
southern coast of Hispanola.
    Operation Genesis resulted in unprecedented exchanges of law 
enforcement cooperation by both the Dominican Republic and Haiti. As a 
result, the Haitian National Police (HNP) assigned an officer and an 
analyst to the Dominican National Drug Control Agency's (DNDC) Santo 
Domingo office, and four (4) more HNP officers were stationed at 
Dominican border crossing points. DNDC officials, on the other hand, 
were assigned to the HNP headquarters' at Port-au-Prince, as well as 
several Haitian border crossing points.
    The exchange of information was further expedited by the UNICORN 
system, which facilitated data base checks of suspicious persons and 
vehicles that were stopped. The information was sent to the Caribbean 
Field Division (CFD)/San Juan office where system checks were 
performed. The information was then sent back to the HNP via the 
UNICORN system.

                           OPERATION COLUMBUS

    Operation Columbus was a multi-national regional effort involving 
the island nations of the Caribbean, in addition to Colombia, Venezuela 
and Panama. The operation focused on air, land and maritime 
interdiction, eradication and clandestine airstrip denial. DEA's Santo 
Domingo Country Office and Trinidad and Tobago Country Office served as 
the northern and southern command posts. The UNICORN system was used to 
facilitate the exchange of actionable intelligence. Operation 
Columbus's principle objectives were:
          The development of a cohesive/cooperative environment among 
        source and transit countries,
          Disruption of drug trafficking activities;
          The consolidation of the counterdrug efforts in the Caribbean 
        transit zone; and
          The continued development of a comprehensive regional 
        strategy.
    Operation Columbus was planned and initiated by the CFD to severely 
impact the drug trafficking activities in the Caribbean and source 
country areas. Columbus was implemented through interdiction and 
eradication efforts, enforcement operations involving the use of 
undercover agents, confidential sources, Title III interceptions, and 
surveillance.

                         OPERATION CONQUISTADOR

    Operation Conquistador was a 17-day multi-national drug enforcement 
operation involving 26 countries of the Caribbean, Central and South 
America. The operation was simultaneously launched on March 10, 2000, 
in Panama, Columbia, Venezuela, Bolivia, Ecuador, Suriname, Trinidad & 
Tobago, Montserrat, Dominica, St. Kitts, Nevis, Antigua, Anguila, St. 
Martin, British Virgin Islands, Barbuda, Grenada, Barbados, St. 
Vincent, St. Lucia, Aruba, Curacao, Jamaica, Haiti, Dominican Republic, 
and the Commonwealth of Puerto Rico. The primary objective of Operation 
Conquistador was to develop an effective regional strategy intended to 
disrupt drug trafficking activities and criminal organizations 
operating throughout the Caribbean.
    Operation Conquistador's main objectives were: (1) The development 
of a cohesive and cooperative environment between source and transit 
countries; (2) The integration within each country of all counterdrug 
entities; (3) The continued development of a comprehensive regional 
strategy; (4) To facilitate the exchange of information between the 
participating countries with the use of the Unified Caribbean On-line 
Regional Network (UNICORN); (5) The mentoring and training of counter-
drug entities in host countries; (6) To impact and disrupt trafficking 
organizations in the Caribbean area and source countries.
    Command and control of the operation was executed from the DEA 
Caribbean Field Division in San Juan, PR, with forward command posts in 
Trinidad & Tobago and Dominican Republic. The U.S. Coast Guard provided 
expanded presence of interdiction assets throughout the Caribbean and 
executed air and maritime command and control of sea and airborne drug 
interdiction assets from all countries. The Bureau of Alcohol, Tobacco 
and Firearms (BATF) conducted traces of all seized weapons. The 
operation concluded on March 26, 2000.
    Although the arrests and seizures in Operation Conquistador were 
extremely impressive, they, however, were secondary to the cooperation 
and coordination among the 26 countries that participated in this 
endeavor. Despite limited resources and infrastructure in many of the 
countries, all responded with notable efforts and results. Throughout 
the duration of the operation, all participants exchanged information 
with each other through the UNICORN system.

                               CONCLUSION

    The transit of illegal drugs throughout the Caribbean creates 
unique challenges to law enforcement. DEA is aggressively addressing 
the drug trafficking threat and working to improve the ability of DEA 
personnel assigned to the region to confront the threat. In addition, 
DEA will continue to assist and support our Caribbean counterparts in 
the counterdrug arena. With the recent successes of the law enforcement 
initiatives I detailed earlier, cooperation among the DEA and the 
island nations in the region are continually progressing. We must 
sustain this cooperative effort to effectively identify and target the 
drug organizations operating throughout the Caribbean.
    Mr. Chairman, thank you for the opportunity to appear before this 
committee. I appreciate the interest you and the subcommittee have 
shown in DEA's drug law enforcement efforts in the Caribbean. At this 
time, I will be happy to answer any questions you or the other 
committee members may have.

    Senator Thurmond. Mr. Varrone.

                  STATEMENT OF JOHN C. VARRONE

    Mr. Varrone. Good morning, Mr. Chairman, Senator DeWine. It 
is my pleasure to have the opportunity to appear before this 
committee to discuss the law enforcement activities of the 
Customs Service, and in particular our enforcement efforts 
directed against drug smuggling in the Caribbean.
    Before I begin, Mr. Chairman, I would like to submit my 
statement for the record.
    As the committee is aware, the Customs Service is one of 
the primary Federal law enforcement agencies with 
responsibility for the interdiction of drugs in the arrival 
zone. In addition, the Customs Service shares the lead with the 
U.S. Coast Guard for air interdiction in the transit zone. 
Through our air and marine interdiction assets, we provide 
significant assistance to other domestic and international law 
enforcement agencies who have responsibility in both the source 
and transit zones.
    I will begin by briefly describing our assessment of the 
drug smuggling threat in the Caribbean. As this committee is 
aware, the Customs Service continually develops, collects, and 
evaluates a variety of drug intelligence from the Caribbean 
area, where it is estimated by the Interagency Assessment of 
Cocaine Movement that approximately 43 percent of the cocaine 
destined for the United States arrives.
    These estimates are clearly validated when you examine drug 
seizure activity in the Caribbean. In fiscal years 1998 and 
1999, respectively, the Customs Service seized 20,673 and 
20,492 pounds of cocaine in the Caribbean. While cocaine is the 
primary threat, Customs also seized 3,442 pounds of marijuana 
in fiscal year 1999, which was an increase of more than 500 
percent from the previous year. Thus far in fiscal year 2000, 
we have already seized 15,639 pounds of cocaine, an increase of 
more than 42 percent from the same period last year. In 
addition to our successful drug seizure activity, in Puerto 
Rico and the U.S. Virgin Islands the Customs Service effected 
383 arrests in 1998 and 551 arrests in 1999 for drug-related 
crimes, a dramatic increase of 44 percent.
    In assessing the overall drug smuggling threat, we are 
routinely confronted with a multitude of smuggling methods of 
operation. The interdiction operations of the Customs Service 
and other federal law enforcement agencies in the Caribbean 
have demonstrated that noncommercial smuggling operations 
remain a significant, if not our principal threat.
    Customs intelligence analysis and recent drug interdiction 
successes have provided insight as to how these drug smuggling 
operations are conducted. For example, private aircraft are not 
used as often for direct flights from source countries to the 
United States as they once were. Rather, they are now being 
used more frequently to conduct air drops in the transit zone 
to a variety of vessels. These drops are predominantly made to 
go-fast boats, who then smuggle the drugs into Caribbean 
nations for staging and subsequent delivery to the United 
States. This activity most frequently occurs in the waters off 
Haiti, the Dominican Republic, Puerto Rico, and the Bahamas.
    We believe that this change is due in large measure to our 
success in the interdiction and seizure of private aircraft 
used for drug smuggling. Our success often raises the cost to 
drug smuggling organizations and forces them to constantly 
change their tactics.
    As I mentioned earlier, our air and marine interdiction 
assets fly in the source zone in support of the Andean region 
plan. We have seen how our support in the source zone to both 
source and transshipment countries has affected drug smuggling 
operations and how they adapt to our efforts. A good example of 
this impact or displacement is the use of Venezuelan air space 
by drug smuggling pilots as a refuge to avoid the Colombian 
shoot-down policy and our detection and monitoring assets.
    While drug smuggling via private aircraft remains 
consistently high, a potentially more significant threat is 
posed by non-commercial maritime shipments, especially in 
Puerto Rico. This is primarily due to the minimal investment 
required for a maritime smuggling venture, as compared to the 
cost and potential loss of an aircraft during an air smuggling 
operation.
    The minimal investment required for a go-fast boat is also 
complemented by a much higher drug load capacity that can be 
carried in go-fast boats, which on average carry 1,000-plus 
pounds, versus the 250 to 400 pounds that can be carried by a 
private aircraft. The number of go-fast boats intercepted and 
found abandoned on the Puerto Rico coastline by Customs and 
other agencies validates our current intelligence that drug 
smuggling organizations consider these to be disposable 
platforms.
    To provide the committee with examples of our recent 
successes, I would like to describe three recent significant 
cocaine interdictions which highlight the importance of the 
Caribbean corridor to smugglers as well as our investigative 
operations.
    On April 4, 2000, Customs agents in Puerto Rico developed 
confidential source information which led them to obtain a 
search warrant for a palletized shipment of 100 central 
processing units bound from Puerto Rico to Queens, New York. As 
a result of the execution of a search warrant, our agents 
seized more than 1,000 pounds of cocaine whichhad been 
concealed within the hollowed-out CPUs. As a result of this seizure, 
two Dominican nationals were arrested.
    Just last Friday, our Customs inspectors in Port 
Everglades, Florida, seized approximately 820 pounds of cocaine 
that had arrived from the Dominican Republic in containerized 
cargo. And just last evening, Customs and other law enforcement 
authorities seized in excess of 500 pounds of cocaine and a 33-
foot vessel near Rincon, Puerto Rico. As of this morning, they 
were still chasing the suspects in the woods and they hadn't 
come up with the bodies, unless Mike knows differently. But 
that is the challenge, when they litter the coastline of Puerto 
Rico with both their contraband and their boats, apprehending 
the suspects.
    We believe that these significant cocaine seizures clearly 
demonstrate how criminal organizations are smuggling cocaine 
into the Caribbean in non-commercial conveyances, and 
subsequently smuggling it into the U.S. in commercial 
shipments. I would also like to point out that our 
investigative operations on Puerto Rico are aggressively 
focused on the internal drug smuggling organizations that have 
established bases of operation in Puerto Rico to support their 
illegal activities.
    Another example which illustrates the increasing drug and 
related money laundering threat in Puerto Rico occurred between 
November of 1997 and September of 1999 when we conducted a 
long-term investigation entitled Operation Double Impact. This 
operation targeted a large-scale heroin smuggling and money 
laundering organization operating in and around San Juan.
    The investigation used several long-term wiretap intercepts 
to gather evidence on the group that was laundering in excess 
of $1.3 million a month through money remittance businesses. As 
a result of the investigation, 47 people were arrested, and 44 
of them have already been convicted or pled guilty. In 
addition, the investigation has resulted in the identification 
of more than $8.5 million in drug-related proceeds which is 
pending forfeiture.
    I would also like to point out for the committee that the 
island of Puerto Rico was recently designated under the 
Treasury and Justice Department's 1999 crime strategy as a 
High-Intensity Financial Crime Area, or HIFCA, in recognition 
of this high level of drug-related money laundering activity 
that investigations like Double Impact have highlighted. While 
we continue to view Puerto Rico as one of the most significant 
avenues of approach in the Caribbean, we know that these 
criminal drug smuggling organizations continually change their 
operations based upon many factors.
    Switching to Haiti, Haiti provides a telling example of how 
drug smuggling organizations adapt their operations in response 
to law enforcement pressures. The political instability in 
Haiti, combined with its lack of law enforcement capabilities, 
provides a safe haven to drug smuggling organizations. Haiti is 
clearly well positioned for traffickers to use as a path of 
least resistance, particularly when enforcement activity in 
Puerto Rico is high.
    In response to the increased threat from Haiti, the Customs 
Service led a multiagency enforcement operation called 
Riversweep. This operation focused on Haitian coastal 
freighters who were attempting to smuggle cocaine into the U.S. 
along the Miami River. In one two-week period in early February 
of this year, Customs officers seized more than 3,400 pounds of 
cocaine from 5 vessels which had arrived from Haiti. During 
April 2000, we have made two additional seizures, totaling more 
than 359 pounds of cocaine, which was concealed within two 
freighters also arriving on the Miami River.
    I have brought with me today some photographs of these 
seizures to illustrate the types of concealments that we are 
constantly confronted with.
    When you add these recent seizures to our fiscal year to 
date totals, the Customs Service has seized more than 6,000 
pounds of cocaine arriving directly from Haiti. In excess of 
5,000 pounds of this cocaine was seized as a direct result of 
Operation Riversweep.
    Our air and marine interdiction assets have also been 
active in both interagency and multilaterally in and around 
Haiti working with other agencies and governments to interdict 
cocaine moving from South America. On March 1 of this year, we 
documented and recorded an ongoing suspected cocaine air drop 
operation in Haiti.
    Mr. Chairman, with your concurrence, I would like to 
present a short video before the committee at the conclusion of 
my remarks.
    While Haiti is clearly an area where there is currently a 
high level of activity, other areas in the Caribbean, 
particularly Jamaica and the Bahamas, are also used by drug 
smuggling groups as alternate delivery and storage locations 
prior to movement to the United States. I have also brought a 
second short video with me that depicts the detection of a 
private plane first identified south of Cuba and subsequently 
intercepted by a variety of law enforcement assets when it 
approached the north of Cuba. And we observed it conducting an 
air drop to a go-fast boat that was subsequently pursued by 
Customs marine assets. Mr. Chairman, I would also like to show 
you that short video.
    On behalf of the men and women in federal lawenforcement 
who are engaged on a daily basis in counter-narcotics activities in 
Puerto Rico and the Caribbean, and specifically our U.S. Customs 
officers, I thank you and your committee for all your support and the 
opportunity to present our enforcement activities and recent successes 
here today.
    This concludes my remarks. I would be glad to answer any 
questions you may have after the video presentation. Thank you.
    I will just briefly describe both of the videos so that I 
won't interrupt any of the questioning. The first video 
occurred on March 1, 2000. The target aircraft was picked up by 
radar approximately 22 miles from Maracaibo, Venezuela, as it 
headed north. This aircraft had been observed on several prior 
occasions and the tail number is a fictitious tail number.
    After the air drop, our P-3 shadowed the aircraft until it 
entered Venezuelan air space, where we requested over-flight. 
Over-flight was denied, and therefore we are unsure if any end 
game actually occurred in Venezuela. The observations made by 
our officers during the suspected cocaine air drop was relayed 
to JIATF East and then to our colleagues in DEA in Haiti. 
However, due to lack of in-country support, no end games could 
be effected.
    The second video which I briefly described before is a 
joint effort between Customs, the Coast Guard, and Department 
of Defense assets. And this is a Piper Aztec that was detected 
as a suspect aircraft south of Cuba. We picked it up just north 
of Cuba, observed it do a drop into the water to a go-fast 
boat, and like I said, we were able to intercept the go-fast 
boat. But it was a high-risk operation because the go-fast boat 
actually rams the Customs boat once or twice during this 
operation. Fortunately, there were no injuries. Five 
individuals were arrested on the vessel and the two pilots who 
had conducted the air drop.
    [Videotape shown.]
    Senator Thurmond. Admiral, the Coast Guard recently 
established a new policy which allows for the use of force from 
armed helicopters and pursuit boats against narco-smugglers in 
go-fast boats. Can you explain the parameters of this use of 
force and when and how it will be utilized, and what impact do 
you feel this will have on your ability to apprehend go-fast 
boats?
    Vice Admiral Shkor. Yes, sir, I can. Our new policy of 
arming helicopters was motivated by a frustration at watching 
high-speed smuggling boats simply leave behind our slower 
surface ships. Often, this was videotaped by helicopters from 
our ships. And we realized that if we could deploy a capability 
from the helicopters to force the smuggling boats to stop, we 
had a high chance of increasing our end game effectiveness.
    Our policy calls for an escalating use of force that begins 
with the least onerous, simply declaring our presence and 
ordering vessels to stop. If they fail to do so after our 
sirens and verbal warnings, we will move to an escalating array 
of non-lethal technologies which include entangling devices 
dropped from the helicopter and intended to foul their 
propellers. It includes sting ball hand grenades used by law 
enforcement for riot control.
    Finally, the policy allows for first-warning shots which 
are fired across the bow of go-fast vessels from a light 
machine gun that we keep on the aircraft. And if that fails to 
persuade, then we will undertake to shoot out the outboard 
motors of the smuggling boats to mechanically bring them to a 
stop.
    I emphasize that our use of firearms in this mode is as a 
specialized tool to stop a piece of machinery. It is not aimed 
against human beings. We have demonstrated a capability on our 
proving grounds, if you will, of reliably and repeatedly 
hitting motors.
    It has been extremely successful in its initial deployment. 
The Hit Run 10 helicopter squadron has come face to face with 
six instances of go-fast boats. We were able to stop all six. 
In two instances, it was necessary to shoot out the motors. In 
two instances, the use of other non-lethal technologies was 
sufficient. And in two instances, simply knowing that we now 
had a credible capacity caused the smugglers to voluntarily 
pull back on the throttles and raise their arms in the air.
    From our perspective, this capability has the potential to 
change the calculus, if you will, for us and for the drug 
smuggler. We will be extremely more effective, and what is 
vitally important to us is we will do so without requiring a 
huge increase in resources. This simply allows us to leverage 
what exists in our fleet and then expand it that last bit to 
achieve true end game effectiveness.
    Senator Thurmond. Mr. Varrone, do you feel that the Customs 
Service should adopt a use of force policy that is parallel to 
the one established by the Coast Guard?
    Mr. Varrone. Well, Mr. Chairman, we are studying the 
approach that the Coast Guard has taken and most of our 
interceptions are marine interceptions in the arrival zone. I 
would say that because, as you can see from the video, we have 
numerous vessels engaged, shooting to render the vessels 
incapable is a little more difficult in the situation that we 
are in on the water.
    So we are certainly studying that and other technologies, 
but we have not committed to a specific shoot policy yet. We do 
not as an organization shoot warning shots. When serious bodily 
harm is threatened, then we will employ as much deadly physical 
force as we need.
    Senator Thurmond. Mr. Vigil, several studies have 
determined that Colombian drug trafficking organizations are 
increasingly using the Caribbean as a transshipment point for 
cocaine. Can you explain what is causing this shift in 
trafficking patterns away from Mexico?
    Mr. Vigil. Well, as I mentioned in my testimony, sir, we 
have what is called the Southwest Border Initiative, and we 
have poured a lot of resources into the Southwest border, the 
border along Mexico. We have conducted what I consider to be 
very significant investigations, immobilizing very significant 
traffickers along that area.
    And as a result of that, what we are seeing is a shift from 
Central America, Mexico, into the Caribbean. The thing that you 
have in the Caribbean is that you have a multitude of 
countries, for example, such as Haiti, that have very little 
infrastructure in terms of their political and economic 
infrastructure. Therefore, you have many of the major Colombian 
organizations that are taking full advantage of this situation 
to exploit the Caribbean in terms of its drug trafficking 
endeavors.
    Senator Thurmond. Admiral Shkor and Mr. Varrone, are you 
satisfied with the progress being made in establishing forward 
operational locations, and are they sufficient to meet your 
needs?
    Vice Admiral Shkor. From my perspective, United States 
Southern Command has done a very, very fine job at establishing 
alternative bases in Central America, in Curacao and further 
down range in Ecuador, to replace the loss of use of Howard Air 
Force Base. It is too early for me to tell what the true 
impacts will be on interdiction, but I think they are making 
the best of the situation that was thrust on them.
    Senator Thurmond. Mr. Varrone.
    Mr. Varrone. Yes, sir, Mr. Chairman. I concur completely 
with what the Admiral has said. Basically, the DoD has the lead 
on this, the FOLs. We are supporting them and looking forward 
to their success in Ecuador, which will serve as another 
platform for us.
    Senator Thurmond. Mr. Varrone, the banking laws in several 
Caribbean countries are very conducive to support money 
laundering. What we are doing to detract the flow of drug 
proceeds into these Caribbean nations, and are we working with 
these countries to find ways which we can form partnerships?
    Mr. Varrone. Yes, sir. As stated in my testimony, the 
designation of Puerto Rico as a HIFCA is a key ingredient to 
that strategy. We are also doing international training along 
with our colleagues in the Department of Justice on anti-money 
laundering to many of the countries down in the Caribbean. I 
believe that the cases like Double Impact and other significant 
money laundering cases are identifying that the threat for 
money laundering in the Caribbean has increased, and I believe 
we are taking the appropriate steps to address that threat.
    Mr. Vigil. If I could also add to that, Mr. Chairman, we do 
have a serious problem with money laundering in several of the 
countries in the Caribbean, and one of the things that we are 
doing is we are working very closely with the host country 
nationals in order to get them to pass effective legislation on 
money laundering. Many of these countries have no legislation 
whatsoever in terms of addressing this problem that continues 
to expand.
    One of the things that we have done in Puerto Rico is we 
have established a multiagency money laundering unit. We have 
established undercover shelf accounts, and we are working with 
some of the countries in the Caribbean under mutual legal 
assistance treaties to try to work joint investigations in 
these areas and work with one another in exchanging information 
so that we can amplify the investigations that are currently 
being conducted in the Caribbean.
    Mr. Varrone. If I may just add one thing, Mr. Chairman, 
pursuant to the 1999 antimoney laundering strategy between DOJ 
and the Department of the Treasury, we have created a money 
laundering coordination center here in the Washington area, and 
that will serve as a de-confliction center and a clearinghouse 
for all the money laundering investigations conducted by the 
Federal law enforcement agencies. So I think that that is a 
mechanism that will serve us very well in the near future.
    Senator Thurmond. Mr. Vigil, how good are Caribbean nations 
in prosecuting and imprisoning those who have been arrested for 
narcotics trafficking-related offenses, and what Caribbean 
nations can we be certain that an end game will take place?
    Mr. Vigil. Well, the best way I can put it is that some 
countries need appropriate legislation to be able to prosecute 
some of these individuals. For example, you have Haiti that has 
a very weak legal infrastructure. However, much to their 
credit, as a result of Operation Genesis, they have now started 
working with the Dominican Republic. For example, they arrested 
the wife, son, and brother-in-law of Roberto Conelo, who is a 
major Colombian drug trafficker.
    They did not have charges on him in Haiti, and therefore 
they took him to the border near the Malpass area and turned 
him over to the Dominican officials for prosecution there. The 
Dominicans, in return, have done the same, arresting Haitian 
individuals and turning them back over to Haiti for 
prosecution. We are working very closely with them, again, in 
terms of passing laws, in terms of ensuring that these 
individuals remain in these countries in terms of their legal 
institutions.
    The other thing that we are doing is we look at 
establishing solid investigations in the United States and 
hoping that we can establish extradition policies to extradite 
them into the United States or arrest them in other countries 
where we do have extradition treaties in order to allow for 
prosecution in the United States.
    Senator Thurmond. Admiral Shkor, in 1998 the National Drug 
Control Strategy established a goal to reduce the flow of drugs 
into the United States by 10 percent by 2002 and 20 percent by 
2007. In the Caribbean area, what progress have you made to 
date toward reaching this goal?
    Vice Admiral Shkor. Sir, our approach to reaching these 
interdiction goals is to deploy a major portion of our cutter 
assets to that theater of operation. Literally 60 percent of 
their time is spent there. We are, with the funding that you 
have provided to us, improving the detection sensor packages on 
our aircraft and on our cutters, and deploying new end game 
assets.
    These include not only the use of armed helicopters which I 
described earlier, but the use of over-the-horizon RIBs which 
enable the cutters to expand their cone of effectiveness beyond 
the visible horizon and well forward of their location. We have 
added to our arsenal a converted TAYGO ship, the Persistent, 
which carries two 35-foot deployable pursuit boats, high-speed 
ocean racing craft which can outrun and out-maneuver smugglers. 
These are well-armed with weapons and communications 
capability, and we are looking for a good return on that 
investment.
    But most important to us, we strive continually to partner 
ever more effectively with our counterparts in DEA, Customs, 
the FBI, and foreign nations so that collectively we have got a 
better handle on what the smuggler is doing and where we can 
stop him. Are we accomplishing the goal? Candidly, we are not 
moving toward it nearly as much as I would like, and that has 
to do with funding limitations.
    Senator Thurmond. The next question is for any of you who 
care to answer it. Your agencies are having difficulty getting 
agents to accept assignments in Puerto Rico. Would making 
Puerto Rico an overseas assignment for agents help you meet 
your staffing needs in that territory?
    Mr. Vigil. I will take the question. I feel that if we can 
make Puerto Rico a foreign post of duty and get a housing 
stipend or housing for the individuals assigned to Puerto Rico, 
I think it would go a long way. There have been some incentives 
that we have obtained for the employees in Puerto Rico. 
However, I feel that they are not sufficient to alleviate this 
retention problem that all Federal agencies have on the island.
    I believe that this would go a long way. I think that we 
need large monetary incentives to also include after the first 
3 years maybe a $25,000 incentive, or 25 percent of base pay. 
But without this situation, we will continue to have retention 
problems. The Drug Enforcement Administration stands to lose 
between 25 and 30 percent of its agent workforce by the year 
2001 because of this retention problem.
    Senator Thurmond. Senator DeWine.
    Senator DeWine. Thank you, Mr. Chairman, very much. Mr. 
Chairman, I do have a----
    Senator Thurmond. Senator, I have got another commitment. 
Could you take over?
    Senator DeWine. I would be more than happy to. Thank you, 
Senator.
    For the record, I have a statement by Senator Leahy which I 
would make a part of the record at this point.
    [The prepared statement of Senator Leahy follows:]

Prepared Statement of Hon. Patrick Leahy, a U.S. Senator From the State 
                               of Vermont

    Earlier this year we began receiving requests from the courts for 
additional resources to help them meet their responsibilities in border 
districts like Puerto Rico. Unfortunately, Congress has taken no action 
in these regards. Instead, Congress has moved in the other direction by 
denying to these districts the resources that they need. Today, the 
Subcommittee's hearing illustrates this point by focusing on drug 
smuggling in Puerto Rico.''
    The Commander of the Coast Guard Atlantic Area testified that his 
``primary counter-drug focus * * * for the upcoming year is on Puerto 
Rico, where the smuggling infrastructure is well developed, entrenched, 
and historically successful'' with ``one-quarter of all cocaine 
destined for the United States * * * being shipped via the 110-mile 
long island of Puerto Rico.''
    There has been a District Court vacancy in Puerto Rico for almost 6 
years, from June 1994. Since 1994, the time from filing to disposition 
for criminal felony cases in the Federal District Court in Puerto Rico 
continues to increase--now to almost twice as long as it was in 1994. 
Criminal felony filings jumped almost 70 percent last year alone. They 
are now the highest in that entire Circuit. By far the greatest number 
of criminal cases in Puerto Rico are drug cases, as over 40 percent of 
all federal criminal cases in the District of Puerto Rico are drug 
cases.
    The President has nominated qualified people to fill the vacancy 
for years but to no avail. Now we have the nomination of Jay Garcia-
Gregory, but there has been no action on his nomination.
    I hope that as the Committee considers its reaction to this 
hearing, one of the matters on which we will take action without 
further delay is the confirmation of Jay Garcia-Gregory.

    Senator DeWine [presiding]. Admiral, you made the 
statement, we have virtually no ability to affect the 
noncommercial air that is going into Haiti. Is that correct?
    Vice Admiral Shkor. Yes, sir.
    Senator DeWine. Similar to the one we saw in the video?
    Vice Admiral Shkor. Yes, sir. We can track them north into 
Haiti, but there is not an effective on-the-ground end game 
capability there. That is something that potentially could be 
built over time, but I just don't see it present now. There are 
security concerns even if we were to try to consider using U.S. 
Hilo lift capability to carry in local police forces that would 
have to be addressed. They are not insurmountable, but they are 
there and they are difficult.
    For that aircraft that returns southbound, JIATF East can 
sustain track, but the smugglers' knowledge that we are not 
allowed to fly into Venezuela makes that the route of choice 
for them. So we are scrubbed off and they can get back into 
Colombia.
    Senator DeWine. If I could summarize your statement about 
Haiti, basically what we are trying to do is indirectly to deal 
with what flows out of Haiti. We are trying to deal with it as 
it goes into Puerto Rico, for example.
    Vice Admiral Shkor. To clarify, sir, I think historically 
we in the Coast Guard have tried to deal with the maritime flow 
going into Haiti. Recognizing now that such a large portion is 
going by air and beyond our efforts, I think I am suggesting 
that we need to shift our tactics as a future line of attack so 
that we collectively are dealing with that outbound secondary 
flow, whether it is to the Miami River or westward to Puerto 
Rico.
    Senator DeWine. But in both of those cases, you are fairly 
optimistic. For example, in the Miami River, the three of you 
have described the success there, and we are seeing some more 
success in regard to dealing with Puerto Rico as well. Is that 
correct?
    Vice Admiral Shkor. I am optimistic, that is correct. Does 
more work need to be done? My answer would be yes. I don't 
think we have as sophisticated an understanding of those 
secondary flows as we now realize we need to achieve.
    Senator DeWine. Mr. Vigil, I have been on the border of the 
Dominican Republic and Haiti, and I know exactly what you are 
talking about. You can just stand at that border and watch 
people walk back and forth, and Lord knows what they have on 
them. They just come and go back.
    The infrastructure, obviously, as you all have pointed out, 
in Haiti is very fragile. The Dominican Republic is certainly a 
different situation, and we are seeing more cooperation between 
Haiti and the Dominican Republic. But it is still from a law 
enforcement point of view very problematic.
    Mr. Vigil. That is correct. I agree with the Admiral in 
terms of trying to do the secondary interdiction of drug loads. 
But at the same time, I think that we need to look at also 
interdicting the drugs before they get into Haiti, quite 
frankly, because they flow then northward to Cape Haitian, and 
from there to the southeastern part of the United States, or it 
goes across the border, as you mentioned, into the hands of 
more sophisticated drug traffickers, the Dominicans. And then 
from there also they have the routes directly into the 
continental United States or across the channel into Puerto 
Rico.
    The thing is that unless we take a very proactive approach 
in Haiti, we are going to have Haiti become another Colombia, 
as it was many years ago. If you have been to Port-au-Prince, 
you can see the mansions going up on the hillsides, and a lot 
of those belong to Colombian traffickers who are establishing 
routes. Once they become deeply embedded there, it is going to 
be that much more difficult to eradicate the problem in Haiti.
    Senator DeWine. In 1998, when I traveled to Haiti, I found 
there was only one permanent DEA agent assigned to Haiti. So we 
put some additional money in the supplemental. We are up to 
eight now?
    Mr. Vigil. Seven agents, and getting the eighth relatively 
soon, yes, sir.
    Senator DeWine. How effectively can they operate in Haiti?
    Mr. Vigil. Well, we are working very effectively, I think, 
in Haiti. Obviously, hopefully in the future we can get 
additional personnel there, but we are working very well at the 
Port-au-Prince International Airport with the BLTS, or the 
counter-narcotics arm of the Haitian National Police. They have 
made seizures. During the course of the last 8 months, I 
believe that they have been responsible for the seizure of $8 
million flowing from Haiti into Panama and other areas in the 
Caribbean.
    We are in the process of establishing a maritime task force 
also in Port-au-Prince. We have intel projects where we are 
developing informants at Cape Haitian and throughout the 
country. Recently, I have started meeting with the Haitian 
National Police Director, Pierre Denize, and other members of 
customs, immigration, and what have you, to form a mobile 
multiagency task force that would address voids in intel and 
also investigative coverage throughout the country of Haiti.
    Senator DeWine. Mr. Vigil, I understand that DEA has had a 
successful program of vetted units in several countries, making 
possible highly successful investigations and cases such as the 
recent Operation Millennium in Colombia. Could this program be 
properly expanded to the Caribbean, and what are your thoughts 
about that?
    Mr. Vigil. Sir, I think it is a great benefit. Right now, 
we are working on establishing vetted units in the Dominican 
Republic and Haiti. Initially, we looked at Haiti as being the 
number one area. However, given the problems with the turmoil 
with the situation with the national elections and the 
instability of the Haitian National Police, I think it would be 
best served if we look at the Dominican Republic that has a 
little bit better infrastructure and then later look at the 
vetted unit in Haiti.
    Senator DeWine. But you are moving on the Dominican 
Republic?
    Mr. Vigil. Yes, sir, we are. That is correct.
    Senator DeWine. Anyplace else in the Caribbean?
    Mr. Vigil. I think that we should also look at areas such 
as Barbados and Curacao. We do have somewhat of a vetted unit 
in Suriname. So it is a beneficial program, I think, that would 
obviously assist us in our investigations.
    Senator DeWine. Admiral, how has the decrease in Department 
of Defense ship days and aircraft flight hours in the transit 
and source zones affected your counter-drug operations in the 
Caribbean?
    Vice Admiral Shkor. Yes, sir. As you know, the Department 
of Defense is the lead agency for detection and monitoring. 
They, if you will, will give us the targets against which we 
will interdict and apprehend. And decreases in that capability 
have a direct and adverse impact on our ability to discharge 
our mission and accomplish the goals of the National Drug 
Control Strategy.
    The largest decrease, I think, has been the subject of 
hearings held earlier this year and amply discussed there. 
There was a 50-percent reduction in DoD assets in 1994.
    Senator DeWine. What percentage?
    Vice Admiral Shkor. Fifty percent, fully cut in half.
    DoD continues to be pressed because as it is asked to 
enable the source country strategy, that results in a tension, 
or at least a competing appetite for the same kinds of assets 
that can be used both in the transit zone and in the source 
country.
    Senator DeWine. Admiral, I wonder if you could step over to 
the map over there a moment. I know it is contained in your 
testimony, but maybe if you could just integrate it with that 
map exactly what activity you have going on in the different 
parts of the region. For example, my understanding is you don't 
have anything going on, such as Operation Frontier Shield or 
Operation Frontier Lance now. Is that correct?
    Vice Admiral Shkor. We have it going on in name only. By 
that, I mean we have some assets. Frontier Shield was our 
effort that we mounted some time ago to focus on the Puerto 
Rican corridor. It was extremely successful. The throughput of 
drugs was reduced on an annualized basis from 25 to 30 metric 
tons. And, again, the Customs Service with Operation Gateway 
had mounted a similar surge operation at the same time.
    It was truly a surge. It was at a level beyond which we 
could keep our ships and airplanes online, and so we have 
reduced to what we had hoped would have been an effective 
maintenance level, some 20 percent of what took place during 
the search. It has not been enough. Over the last 2 years, the 
throughput of cocaine in the Puerto Rican theater has risen 
from some 30 tons to something above 100 metric tons.
    Senator DeWine. So this is not seizure?
    Vice Admiral Shkor. This is the throughput.
    Senator DeWine. Throughput.
    Vice Admiral Shkor. Yes, sir.
    Senator DeWine. And how reliable is that figure?
    Vice Admiral Shkor. Well, the figure that I am giving you 
is interagency-based.
    Senator DeWine. I understand.
    Vice Admiral Shkor. I have a fair amount of confidence 
about it simply because the people that make those estimates 
tend to be relatively conservative. They don't want to be, if 
you will, held up to embarrassment by overstating the case.
    Senator DeWine. So this is a fairly reliable chart?
    Vice Admiral Shkor. Yes, sir.
    Senator DeWine. And what is your summary of this chart? 
What does it tell us?
    Vice Admiral Shkor. It tells me that, collectively, we have 
not maintained control of our backyard in Puerto Rico. In one 
sense, it is a favorable operating area. U.S. law applies. We 
don't have the problem of foreign sovereignty and we are 
relatively asset-rich. But the smuggler has made the choice 
that that is a place to bring cocaine into, and I think that 
choice is driven by the fact that once it is in Puerto Rico, 
from a Customs legal standpoint, it is effectively in Kansas. 
That makes it very, very attractive.
    The agencies have worked hard. They have sustained seizure 
levels; 23 percent is the figure I gave you, and that is about 
25 metric tons this last year. That is pretty good, but 
standing alone it hasn't been enough to deter thatsmuggler from 
making a business judgment. So from my perspective, we need to tighten 
the noose back around Puerto Rico.
    Senator DeWine. What is required for you to have a 
deterrent effect? Is there a point where we know from past 
experience that they will go somewhere else and they back off?
    Vice Admiral Shkor. I am looking for a slide that I don't 
have here. When we were doing Frontier Shield and Gateway at 
the full-up level, the seizure rates were 35 percent of the 
cocaine moving in. That level seemed to reduce the smuggler's 
reliance on Puerto Rico.
    For me, though, the answer is not just in pounds on the 
table for seizures. I want very much to produce prosecutable 
cases, and that is what our aircraft use of force does for us. 
I don't want to just pick drugs out of the water. I want boats, 
I want drugs, I want criminals. I want the U.S. attorney to be 
able to put them in jail because that is where we really get 
deterrent. And from that perspective, my guidance to my people 
is to work very closely with Mr. Vigil and with Customs down 
range because there is, in my view, a symbiotic relationship 
between at-sea drug interdiction and support to investigatory 
law enforcement, and that works both ways.
    Senator DeWine. Well, let me ask you a basic question, 
then. If I am looking at this map and I look at Puerto Rico, on 
any one given day I would expect to see your assets where? 
Where would they be deployed?
    Vice Admiral Shkor. We will have assets operating on the 
underbelly of Puerto Rico. We will have them operating on the 
eastern end of Puerto Rico because there is a significant flow 
that comes from the windward islands. Of this 108 metric tons 
that we show flowing into Puerto Rico, maybe 20 to 22 metric 
tons is estimated to come from the Virgin Islands and non-U.S. 
windward islands.
    There is also a flow of both migrants and drugs coming off 
the Dominican Republic, and so we will maintain a presence 
there. What we are not doing is maintaining it with a 
sufficient asset density or with a sufficient detection rate to 
provide that deterrence.
    Senator DeWine. Then when I move over off the coast of 
Haiti, what do I find?
    Vice Admiral Shkor. Well, you will find, in our judgment, 
about 78 metric tons going up into Haiti. Part of that, a 
significant portion, will be carried by go-fast boats that can 
make the run directly with enough fuel. They don't need to stop 
or be gassed up along the way. Some of that seagoing movement 
will go by small commercial freighter. We will often find drugs 
hidden in cargoes of cement that will be off-loaded in Port-au-
Prince. But you are also going to find a very high density of 
air tracks going from Colombia up into Haiti, as was described 
very, very well in the videotapes.
    Senator DeWine. And what about the Coast Guard's assets, 
though, on any given day off Haiti? Would I find anything there 
or not?
    Vice Admiral Shkor. Much less, much less. We have an 
Operation Frontier Lance, but----
    Senator DeWine. But, again, that is not a surge?
    Vice Admiral Shkor. No, sir, by no means.
    Senator DeWine. The name is still there. You are there 
sometimes.
    Vice Admiral Shkor. Yes, sir. In fact, it is just the 
opposite. I have made some reductions in operations this year, 
so you are going to see less than you would have seen just last 
year.
    Senator DeWine. Do you want to take the rest of the 
Caribbean and tell me what is going on there?
    Vice Admiral Shkor. With regard to Jamaica, we will have 
pulsed operations with the Jamaicans from time to time. They 
have achieved the status of an archipelagic state, and that 
means that a large body of water south of Jamaica is their 
internal archipelagic waters. We have to operate there with 
their permission. We are endeavoring to use our bilateral 
agreements that allow ship riders and our operations in those 
waters to get us there, but that is really the third order of 
priority.
    If I swing even further west, you will find much less of 
our assets, and that is intel-driven. The flow estimates, if 
you will, of cocaine going up into the Yucatan Peninsula have 
been much down from what they historically have been. Whether 
that has been effectiveness achieved by JIATF East--and they 
did get a very high percentage of detections--or whether it is 
action in Mexico or the Central American countries, I am not 
quite sure. But we are content, if you will, to keep our 
presence reduced and concentrate where we see the higher threat 
axes.
    Senator DeWine. Admiral, thank you very much.
    Mr. Varrone, it is critical that we continue to explore new 
technologies to combat illicit drug trafficking. Last year, 
Senator Grassley and I in a letter to Commissioner Kelly 
expressed support for a new passive radar technology that would 
assist in closing coverage gaps in the arrival zone.
    What is the status, in your opinion, of this program, and 
how and where could Customs utilize this new technology?
    Mr. Varrone. Sir, I am not familiar with the specific 
technology that you are referring to. Are you talking about the 
container x-ray technology or the radar technology?
    Senator DeWine. This is the passive coherent location 
system that provides a mobile surveillance capability that can 
be deployed to directly impact air interdiction missions of 
Customs. You are not familiar with that?
    Mr. Varrone. No, sir.
    Senator DeWine. OK, I appreciate that.
    Well, listen, I thank you all very much. This has been a 
very helpful hearing, and you all are doing a great job. I wish 
we could give you more resources and more help, and we hope to 
do that in the future.
    Thank you all very much.
    Vice Admiral Shkor. Thank you.
    Mr. Varrone. Thank you, sir.
    Senator DeWine. The record will remain open for one week 
for any additional submissions.
    We stand adjourned.
    [Whereupon, at 11:42 a.m, the subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


                         Questions and Answers

                              ----------                              


     Responses of John E. Shkor to Questions From Senator Thurmond

    Question 1. Cooperation from countries in the Caribbean is critical 
to successful interdiction, especially given their limited resources. 
In some of these countries, the United States does not have bilateral 
treaties or agreements regarding counterdrug efforts, such as to enter 
their waters. What is the status of efforts to achieve or strengthen 
counterdrug agreements with Caribbean nations?
    Answer 1. The United States currently has cooperative counterdrug 
agreements with 22 nations, 21 of which have a Caribbean nexus, 
including the Bahamas and Turks & Caicos. The agreements contain all or 
portions of the components of a standard six-part maritime counterdrug 
bilateral agreement. The six parts of a standard agreement address 
shipboarding, shipriders, pursuit, entry-to-investigate, overflight, 
and relay order-to-land. The United States is pursuing bilateral 
agreements with nations with which there is no maritime counterdrug 
treaty in place, and we are attempting to broaden treaties that 
currently exist.
    Building trust, enhancing multi-national capability, and 
encouraging interoperability are keystones of the Coast Guard's 
counterdrug strategy. We strengthen our international agreements 
through service-to-service contracts and cooperative efforts, such as 
the Coast Guard's Inernational Training Detachment, the Caribbean 
Support Tender, stateside training for international officers, combined 
international exercises (Operations TRADEWINDS and UNITAS), assistance 
with the Caribbean Regional Security System, and cooperative operations 
(Operations CARIB VENTURE, CONJUNTOS, MAYAN JAGUAR, RIPTIDE, and 
FRONTIER LANCE).

    Question 2. The General Accounting Office has often recommended 
that counter narcotics agencies need to develop a centralized system 
for recording and sharing lessons learned by various agencies while 
conducting their operations. Do the federal agencies involved in 
Caribbean interdiction have a formal arrangement for recording and 
sharing lessons learned?
    Answer 2. The Coast Guard is not aware of any formal arrangement 
for recording and sharing lessons learned among federal agencies 
involved in Caribbean drug interdiction. However, the Coast Guard and 
its drug interdiction counterparts have extensive interagency 
experience in operations planning, execution, and evaluation through 
involvement in Joint Interagency Task Force-East (JIATF-E) and various 
interagency operations. Interagency representation in these initiatives 
fosters information sharing through joint planning sessions, operations 
orders, and debriefings. For example, following Operation CONQUISTADOR, 
a 17-day interagency Caribbean counterdrug effort involving 26 
countries of the Caribbean, Central and South America, the Drug 
Enforcement Administration reported that primary benefits of the 
operation were the networking, intelligence sharing, and feedback among 
participants.
    Other initiatives include the Drug Enforcement Administration's 
Unified Caribbean On-Line Regional Network (UNICORN) designed to 
support information sharing among Caribbean nations, a JIATF-E-
sponsored semiannual planning conference, and coordination of 
counterdrug activities in the Puerto Rico operating area through the 
Puerto Rico/U.S. Virgin Islands HIDTA Executive Committee.

    Question 3. While trafficking along the Southwest border may have 
diminished slightly, I do not think anyone would contend that we are in 
a position to remove the considerable counterdrug assets located in 
that region. That said, it is obvious that narcotics traffickers are 
now looking to exploit the relatively open Caribbean to transport drugs 
into the United States. My question to each of you is ``How many more 
assets are required to fight the flow of drugs in the Caribbean without 
sacrificing the counterdrug infrastructure we have created on the 
Southwest border?''
    Answer 3. The assets the Coast Guard requires to fight the flow of 
drugs in the Caribbean are reflected in its fiscal year 2001 budget 
request. The President's fiscal year 2001 budget request supports the 
three key priorities for Coast Guard drug interdiction efforts in 
support of the supply reduction goals of the National Drug Control 
Strategy:
          Increase surface end-game capability, including the ability 
        to mount expeditionary pulse operations;
          Increase airborne maritime patrol capability to support 
        surface end-game activities; and
          Enhance the capability and effectiveness of current assets 
        with sensors, technology, and operational enablers such as 
        intelligence support.
    The Coast Guard also fully cooperates in the interagency working 
group that makes international interdiction asset recommendations. The 
U.S Interdiction Coordinator, under charter from the Director, Office 
of National Drug Control Strategy, leads the Interdiction Planning and 
Asset Management Group (IPAMG). This standing interagency working group 
makes asset recommendations to ONDCP, with full support of all federal 
interdiction agencies.

    Question 4. Would you please comment on what Caribbean nations are 
cooperative and what nations are uncooperative in fighting drug 
trafficking? Also, please address what effect Venezuela's refusal to 
allow the United States overflight access, as well its general 
resistance to our drug fighting efforts, is having on our ability to 
pursue traffickers?
    Answer 4. The Coast Guard concurs with the Presidential 
Determination on Major Illicit Drug Producing and Drug Transit 
Countries (Presidential Determination No. 2000-16). Most Caribbean 
nations are aware of the adverse impacts of drug smuggling on their 
national security. Outward evidence of their concern is the existence 
of 21 bilateral counterdrug agreements between the U.S. and Caribbean 
nations. These agreements have enhanced our ability to conduct combined 
and cooperative counterdrug operations, such as Operations MAYAN 
JAGUAR, CONJUNTOS, BLUE WATER, and CARIB VENTURE, with these countries. 
Further, the Coast Guard employs International Training Detachments and 
the Caribbean Support Tender to help Caribbean nations needing 
assistance in personnel training and boat maintenance and operations.
    Venezuela has not generally resisted U.S. maritime counter-drug 
efforts, as evidenced by the U.S./Venezuela bilateral agreement, and 
the presence of a Coast Guard attache in Caracas. As for air 
interdiction efforts, Venezuela has not authorized U.S. tracker 
aircraft, in hot pursuit of drug smuggling aircraft, to enter its air 
space to effect interdiction end-game. Venezuela has cited national 
sovereignty concerns as their justification for protecting their air 
space. This decision negatively impacts the U.S. ability to effect an 
end-game on target aircraft since tracker aircraft are forced to break 
off pursuit and therefore cannot follow drug smuggling aircraft to 
their final destination to arrange for an end-game on the ground.

    Question 5. I am concerned that we are not doing as good a job as 
we could when it comes to strategic planning and information sharing. 
What steps can we take to improve in these areas?
    Answer 5. Federal counterdrug agencies have taken important steps 
to improve strategic planning and information sharing. The Coast Guard 
is completing an update to its counterdrug strategic plan, Campaign 
STEEL WEB, which supports the National Drug Control Strategy. In 
addition, the Coast Guard's operational commanders issue Theater 
Campaign Plans to support STEEL WEB and focus on their area of 
responsibility. The Theater Campaign Plans are developed with input and 
information from other counterdrug agencies. For example, the Atlantic 
Area Commander's Theater Campaign Plan was coordinated with the U.S. 
Southern Command (SOUTHCOM) and Joint Interagency Task Force-East 
(JIATF-E) to complement each organization's counterdrug efforts. The 
Coast Guard is also a full participant in the interagency process 
sponsored by the U.S. Interdiction Coordinator to develop periodic 
Interdiction Planning Guidance (IPG). This document sets forth 
strategic guidance for agencies involved in international interdiction 
to best focus planning and coordination of counter-narcotics 
operations.
    The Coast Guard was an integral contributor to the General 
Counterdrug Intelligence Plan (GCIP), which reflects the collective 
need to clarify and make systemic improvements to U.S. drug 
intelligence and information programs. The GCIP's goal is to establish 
a drug intelligence framework that supports operators in the field, 
improves federal, state, and local relationships, and responds to 
policymaker needs as they formulate counterdrug policy, tasking, and 
resource decisions.
    The Counterdrug Intelligence Coordination Group (CDICG) and the 
Counterdrug Intelligence Secretariat (CDX), with Coast Guard executive 
membership, was established to improve information sharing among 
National, Defense, and Law Enforcement intelligence agencies. The CDX 
will enhance intelligence production at the tactical, operational, and 
strategic levels by providing analyses and recommendations for 
deconflicting intelligence overlap, promoting intelligence exchange, 
and enhancing support to customers of law enforcement-related 
intelligence products at all levels of planning.
    The Coast Guard and its drug interdiction counterparts have 
extensive interagency experience in operations planning, execution, and 
evaluation through our involvement in JIATFs and various interagency 
operations. Interagency representation in these initiatives fosters 
information sharing through joint planning sessions, operations orders, 
and debriefings. For example, Operation CAPER FOCUS has been 
exceptionally successful with record drug seizures in the eastern 
Pacific, which were the result of long-term strategic planning, and 
unprecedented interagency information sharing. Following Operation 
CONQUISTADOR, a wide-ranging interagency Caribbean counterdrug effort, 
the Drug Enforcement Administration reported that primary benefits of 
the operation were the networking, intelligence sharing, and feedback 
among participants.

    Question 6. It seems that without having good information as to 
when, where, and how drugs will be shipped, we are essentially 
operating blindly. What steps can be taken to improve intelligence 
gathering efforts in the source zones?
    Answer 6. The Coast Guard is not a member of the National Foreign 
Intelligence Community (NFIC) and as such has no legal authorization to 
collect intelligence in source zone countries. Therefore, the Coast 
Guard must rely on other agencies with requisite authority to provide 
critically needed intelligence information. To improve source country 
intelligence gathering efforts in support of Coast Guard operations, we 
continue to work with our partners in the Intelligence community to 
ensure that Coast Guard operational needs are supported to the extent 
possible. These efforts include increasing participation of the Coast 
Guard in the Defense Attache program, evaluating the feasibility of 
Coast Guard membership in the NFIC/foreign intelligence community, and 
establishing Coast Guard intelligence liaison officer positions with 
the Federal Bureau of Investigation, Drug Enforcement Administration, 
Customs Service, and Interpol.

    Question 7. I understand that one of the trends law enforcement is 
beginning to notice is the merging of criminal enterprises. For 
example, in the past, one organization might smuggle drugs, while 
another organization might smuggle migrants, but today, one 
organization might smuggle both. What sort of merging of criminal 
enterprises are you seeing in the Caribbean?
    Answer 7. Over the last five years, the Coast Guard has noted the 
diversification of smuggling operations in the Caribbean. Smuggling 
organizations in South Florida, the Bahamas and the Dominican Republic 
move both illegal aliens and drugs as the opportunity arises. While 
there have been indicators of this dual-cargo smuggling, it has been 
difficult to find evidence of both types of trafficking in any single 
interdiction. A recent joint investigation in south Florida involving 
the Coast Guard, U.S. Border Patrol and U.S. Customs, has identified 
four separate organizations tied to both drug and migrant smuggling. 
This investigation is currently centered on go-fast type vessels, and 
has yet to explore the possibility of other modes of transportation 
such as coastal freighters.

    Question 8. What would you rank as your most important priorities 
to counter the trafficking situation in the Caribbean?
    Answer 8. The Coast Guard's primary counterdrug focus in Atlantic 
Area for the upcoming year is on Puerto Rico, where the smuggling 
infrastructure is well development, entrenched, and historically 
successful. As our efforts over time are successful in this regard we 
would expect a shift to Haiti and Jamaica, as smuggling activity in 
Puerto Rico becomes prohibitively risky to traffickers. Thus, the Coast 
Guard must remain tactically flexible to address an anticipated 
increased flow into Haiti and Jamaica as our operations in Puerto Rico 
succeed.

    Question 9. The Department of Defense assets devoted to 
interdiction efforts has decreased considerably in recent years. From 
1992 to 1999, the number of DOD flight hours devoted to tracking 
illegal drug shipments in transshipment areas decreased by 68 percent. 
While this decline has been slightly offset by increased Coast Guard 
flights, the number of flight hours for all agencies combined is still 
down considerably from what they were in 1992. Has this reduction 
significantly harmed interdiction efforts in the Caribbean?
    Answer 9. Successful counterdrug operations require robust 
intelligence collection and dissemination capability, dedicated 
detection and monitoring capability, and a credible interdiction and 
apprehension capability. Since the drug seizure rate has increased in 
recent years, no evidence seems to indicate that changes in DoD flight 
hours have significantly harmed interdiction efforts. While Maritime 
Patrol Aircraft assets continue to be an integral part of interagency 
success, ongoing efforts to capitalize on interagency and international 
coordination and intelligence sharing continue to show positive results 
due to the ``force multiplier'' effect of such cooperation.
                                 ______
                                 

      Response of John E. Shkor to a Question from Senator DeWine

    Question 1. We have learned a lot about the readiness concerns of 
the other Armed Services, especially concerning recruitment, training, 
and equipment. I am disappointed that these discussions have not really 
included the Coast Guard. In fact, we recently learned that you have 
scaled back your operation 10 percent for the remainder of fiscal year 
2000. Can you describe for me your current readiness situation, the 
potential need for further operational reductions this year, and how 
this has impacted your counterdrug operations in the Caribbean?
    Answer 1. Lack of adequate funding has diminished our ability to 
sustain counterdrug operations. In January, we were forced to cut major 
cutters' annual operating days from 185 to 175, the equivalent of tying 
a ship to the dock for a year. In March, my headquarters cut fixed wing 
air operations by 10% because the parts bins were running dry and 
couldn't sustain operations through the end of the fiscal year. That is 
the equivalent of putting one C-130 and two Falcon interceptors in the 
hanger for a year. Now we are looking at further cutting back my 
counter-drug operations, by 25% because of fuel account shortfall. The 
T-AGOS Maritime Interdiction Support Vessel with Deployable Pursuit 
Boats promises tremendous payback, but funding constraint will limit us 
to 180 days of operation in fiscal year 2001--rather than the 270 days 
originally envisioned. The next phase of Aircraft Use of Force is now 
being planned for a much lower rate of implementation because of 
funding shortfalls.
    Additionally, pilot shortages and the requirement to fully stand up 
two Great Lakes Air Facilities, will reduce the flight deck fill rate 
on counterdrug patrolling cutters from an already unacceptably low rate 
of about 60 percent, to in the neighborhood of 20 percent for the 
upcoming summer months.
                                 ______
                                 

    Responses of Michael S. Vigil to Questions From Senator Thurmond

    Question 1. Cooperation from countries in the Caribbean is critical 
to successful interdiction, especially given their limited resources. 
In some of these countries, the United States does not have bilateral 
treaties or agreements regarding counterdrug efforts, such as to enter 
their waters. What is the status of efforts to achieve or strengthen 
counterdrug agreements with Caribbean nations?
    Answer 1. Efforts are continual towards strengthening counterdrug 
agreements with our cooperating Caribbean nations. Most of the nations 
in the Caribbean do have ``shiprider'' agreements, which provide 
authority to embark law enforcement officials on platforms of the 
parties, where officials may then authorize certain law enforcement 
actions. Recent operations such as Genesis, Columbus and Conquistador 
have helped to create a unified bond of information gathering and 
sharing between the Caribbean nations and the United States, via the 
DEA Caribbean Field Division (CFD). DEA, along with other federal law 
enforcement agencies, has established cooperative efforts with 25 
countries, as well as memoranda of understanding with several of these 
countries. DEA special agents assigned to the country offices work 
along with host nation personnel on matters pertaining to law 
enforcement. The use of United States (U.S.) military forces in these 
countries will have to be negotiated with the Caribbean Nations after 
cooperation efforts and bilateral treaties are established.

    Question 2. The General Accounting Office has often recommended 
that counter-narcotics agencies need to develop a centralized system 
for recording and sharing lessons learned by various agencies while 
conducting their operations. Do the federal agencies involved in 
Caribbean interdiction have a formal arrangement for recording and 
sharing lessons learned?
    Answer 2. The conglomerate of federal agencies involved in the 
interdiction of drugs throughout the Caribbean has formal processes for 
recording and sharing lessons learned at the administrative, 
operational, and strategic levels. The High Intensity Drug Trafficking 
Area (HIDTA) initiative, located in San Juan, Puerto Rico, serves as 
the forum through which all federal agencies exchange ideas, 
experiences, and intelligence information, vital to their decision-
making processes. At the administrative level, the HIDTA Executive 
Committee, made up of the entire federal agency Special Agents in 
Charge (SACs), meets on a monthly basis. At the operational level, all 
supervisors from the different initiatives meet on a monthly basis to 
exchange information regarding their on-going investigations. At the 
strategic level, the Intelligence Coordination Center (ICC) Group 
Supervisors meet on a weekly basis to exchange intelligence information 
on the latest drug trends and investigations.

    Question 3. While trafficking along the Southwest border may have 
diminished slightly, I do not think anyone would contend that we are 
the relatively open Caribbean to transport drugs into the United 
States. My question to each of you is ``How many more assets are 
required to fight the flow of drugs in the Caribbean without 
sacrificing the counterdrug in a position to remove the considerable 
counterdrug assets located in that region. That said, it is obvious 
that narcotics traffickers are now looking to exploit infrastructure we 
have created on the Southwest Border?
    Answer 3. While the southwest border continues to be the primary 
point of entry for drugs into the United States, the role of the 
Caribbean Corridor in the transshipment of drugs destined for the U.S. 
cannot be ignored. The interagency Cocaine Movement Assessment Report 
estimates that 30-33% of the cocaine destined for the United States 
transits the Caribbean Corridor. In addition, the smuggling of heroin 
through the Caribbean is on the rise as well as marijuana and other 
dangerous drugs such as MDMA (Ecstasy). The international drug 
trafficking organizations operating in the CFD area of responsibility 
continue to exploit the advantages of the region. The vastness of the 
Caribbean Sea and the geographically fragmented nature of the Caribbean 
islands lure drug traffickers to the region. While the Unified 
Caribbean On-Line Regional Network (UNICORN) system provides 
institution building in the form of training, and several multi-
national operations have contributed to the development of a 
comprehensive Regional Strategy, counternarcotic entities working in 
the Caribbean still face many challenges.
    With hundreds of well-funded drug trafficking organizations 
operating throughout the Caribbean, the counternarcotic officers 
ability to rapidly respond to the diverse trafficking situations of the 
region is essential. Aircraft (helicopters), maritime interdiction 
vessels, related technological equipment, wiretap interception 
equipment, and trained personnel must be augmented in order to 
effectively immobilize drug trafficking organizations. Without these 
additional assets, the Caribbean, and subsequently the U.S., will 
increasingly feel the negative effects of drug trafficking in the forms 
of addiction, crime, and corruption.

    Question 4. Would you please comment on what Caribbean nations are 
cooperative and what nations are uncooperative in fighting drug-
trafficking? Also please address what effect Venezuela's refusal to 
allow the United States overflight access, as well its general 
resistance to our drug fighting efforts, is having on our ability to 
pursue traffickers?
    Answer 4. The CFD has established positive working relationships 
with the various host-nation counterparts within its area of 
responsibility. While these nations have demonstrated good faith in 
their counternarcotic efforts, varying political and socioeconomic 
infrastructures have allowed for varying degrees of impact on drug 
trafficking.Overall, the nations covered by the CFD have been 
cooperative within the parameters of their respective limitations. (See 
previous questions for further details.)
    Venezuela has become a major transshipment nation for cocaine and 
heroin produced in Colombia. The cocaine and heroin are transshipped 
through the chain of Eastern Caribbean islands enroute to the 
continental United States, Puerto Rico, and/or the United States Virgin 
Islands. Venezuela does not allow U.S. overflights in pursue of 
traffickers. However, the U.S. can apply for permission to do so on an 
individual basis. Venezuelan authorities rarely permit U.S. 
overflights. In the past year, Venezuela approved one overflight 
request. The lack of direct air interdiction has contributed to an 
increase in drug trafficking activities via airplanes from Colombia to 
Venezuela.

    Question 5. I am concerned that we are not doing as good a job as 
we could when it comes to strategic planning and information sharing. 
What steps can we take to improve in these areas?
    Answer 5. The CFD has taken significant steps to increase 
information sharing and strategic cooperation between Caribbean 
countries. The first of these efforts took place in October 1998 with 
Operation Genesis. Operation Genesis was a CFD initiative to establish 
a cooperative relationship between the Dominican Republic and Haiti. 
Historically, these countries which have had a history of hatred and 
distrust, agreed to cooperate in a major drug interdiction operation. 
Haitian and Dominican authorities exchanged personnel in furtherance of 
this operation. The objectives of this operation included: border 
surveillance, airport interdiction and seaport interdiction, inspecting 
pleasure craft, raiding local targets, eradication (where applicable), 
patrolling targeted trafficking routes on land, sea, and air, follow-up 
investigations to identify organization members (if applicable), 
arrests, and seizures. The most important result of this operation was 
the extradition of 4 members of the Coneo Rios drug trafficking 
organization from Haiti to the Dominican Republic. The Coneo Rios 
family had been carrying out its drug trafficking activities in Haiti 
with impunity for many years until DEA personnel in conjunction with 
Haitian authorities arrested several of their members. Subsequently, in 
the first event of its kind, Haitian authorities extradited Sixta Tulia 
Higuera Carcomo, Jose Manuel Coneo, William Jimenez-Herrera and Ricardo 
Enrique Guerrero to the Dominican government. Operation Genesis paved 
the way for future cooperation between these countries.
    In 1998 the CFD initiated an information sharing communication 
system known as UNICORN. UNICORN allows participating countries the 
ability to share law enforcement information with neighboring 
countries, especially under operational conditions. Participants can 
rapidly disseminate actionable enforcement information, and coordinate 
responses to emergent situations. The installed imagery capability, 
provided by scanners, can help overcome language barriers. Those 
nations with multiple UNICORN systems have them installed in the DEA 
Caribbean offices as well as the offices of the local counterparts.
                   current unicorn participants/sets
     1. Anguilla;
     2. Antigua--1;
     3. Aruba--2;
     4. Barbados--2;
     5. Bogota and Baranquilla, CO;
     6. Bolivia;
     7. Bonaire--1;
     8. Caracas, VZ--2;
     9. Curacao, NA;
    10. Dominica--1;
    11. Ecuador;
    12. Grenada--1;
    13. Port-au-Prince, Haiti--2;
    14. Jamaica--2;
    15. Miami (British Consulate);
    16. Montserrat;
    17. Panama--1;
    18. San Juan, PR--3;
    19. Santo Domingo, Dom. Rep.--3;
    20. St. Kitts--1;
    21. St. Lucia--1;
    22. St. Vincent--1;
    23. St. Maarten--1;
    24. Suriname--1;
    25. Tortola--1;
    26. Trinidad--2.
    Approximatley one dozen nations may be added to the system over the 
next year.
    The UNICORN system played a major role in Operation Columbus, the 
second major CFD initiative directed at increasing cooperation between 
Caribbean and South American countries in the fight against drug 
trafficking. Operation Columbus had a much larger scope than Operation 
Genesis. Operation Columbus was a multi-faceted operation initiated by 
the CFD involving fifteen countries and their respective law 
enforcement agencies united by a common goal to disrupt drug 
trafficking activities in the Caribbean corridor. The operation began 
on 9/29/99 and terminated on 10/10/99. The Santo Domingo Country Office 
served as the north command center and the Trinidad & Tobago Country 
Office served as the South Command Center.
    The countries that participated in this joint cooperative effort 
were: Barbados, Grenada, St. Lucia, St. Vincent, Curacao, Aruba, 
Suriname, Jamaica, Dominican Republic, Haiti, Colombia (Barranquilla & 
Bogota), Panama, Trinidad & Tobago, Venezuela, and Puerto Rico.
    The primary objectives of Operation Columbus were:
    1. The development of a cohesive and cooperative environment among 
source and transit countries.
    2. The integration within each country of all counter-drug 
entities.
    3. The continued development of a comprehensive regional drug 
strategy.
    4. The facilitation and exchange of information between the 
participating countries through UNICORN.
    5. Mentoring and training of counter-drug entities in host 
countries.
    6. To impact and disrupt drug trafficking organizations in the 
Caribbean corridor and source countries.
    UNICORN was successfully used to facilitate the exchange and 
dissemination of information of strategic, operational and tactical 
value and was instrumental in handling information in a timely manner.
    During March 1999, the third major multi-national CFD enforcement 
operation was carried out. Operation Conquistador was a multi-faceted, 
joint regional operation initiated by the CFD and supported by the 
United States Coast Guard Greater Antilles Section (USCG/GANTSEC). 
Operation Conquistador brought together twenty-six countries and their 
respective law enforcement agencies united by a common goal to disrupt 
drug trafficking activities in the Caribbean and South America.
    The participating countries in this effort were: Jamaica, Haiti, 
Dominican Republic, British Virgin Islands, Anguilla, Dutch St. 
Maarten, Montserrat, Trinidad and Tobago, Barbados, Aruba, Curacao, 
Antigua, Barbuda, Dominica, Grenada, St. Kitts, Nevis, St. Lucia, St. 
Vincent, Suriname, Venezuela, Colombia, Panama, Ecuador, Bolivia, and 
Puerto Rico. The Santo Domingo Country Office and the Trinidad and 
Tobago Country Office served as the two command centers for the 
duration of the operation that began on 3/10/2000 and ended on 3/26/
2000.
    UNICORN once again played a key role in the exchange and 
dissemination of information with strategic, operational, and tactical 
value to all participating law enforcement entities of the 
participating countries.
    The objectives of Operation Conquistador were:
    1. The development of a cohesive and cooperative environment among 
source and transit countries.
    2. The integration within each country of all counter-drug 
entities.
    3. The continued development of a comprehensive regional drug 
strategy.
    4. The facilitation and exchange of information between the 
participating countries through UNICORN.
    5. Mentoring and training of counter-drug entities in host 
countries.
    6. To impact and disrupt drug trafficking organizations in the 
Caribbean corridor and source countries.
    As a result of these multinational operations, and the 
establishment of the UNICORN system, the Caribbean Field Division has 
made great advances in the sharing of information and strategic 
cooperation among Caribbean nations.

    Question 6. It seems that without having good information as to 
when, where, and how drugs will be shipped, we are essentially 
operating blindly. What steps can be taken to improve intelligence 
gathering efforts in the source zones?
    Answer 6. Within the CFD area of responsibility, the major source 
countries are marijuana producers. St. Vincent and Jamaica are the 
major marijuana growing countries in the Caribbean. During the past 
years, DEA has carried out multiple eradication operations in these 
source countries. The DEA Country Offices in Jamaica and Barbados have 
greatly improved our intelligence gathering capabilities in these 
countries. Also, increased funding to allow DEA Intelligence Analysts 
to travel to source and transshipment countries would allow for the 
gathering of first hand information about smuggling methods. Increased 
funding for wiretaps and Confidential Source recruitment would greatly 
improve intelligence gathering methods involving transshipment events.

    Question 7. I understand that one of the trends law enforcement is 
beginning to notice is the merging of criminal enterprises. For 
example, in the past, one organization might smuggle migrants, but 
today, one organization might smuggle both. What sort of merging of 
criminal enterprises are you seeing in the Caribbean?
    Answer 7. The Luis Munoz Marin International Airport (LMMIA) in 
Puerto Rico is an important gateway of illicit smuggling activities. 
This is the busiest international air facility in the Caribbean and 
reportedly processes in excess of nine million passengers annually. The 
LMMIA is the eighth largest airport in the U.S. by number of arrival 
flights from foreign destinations.
    According to INTERPOL, about 35% of all cocaine entering Puerto 
Rico is believed to be smuggled via Hispaniola (Haiti and Dominican 
Republic). Half of the total volume of cocaine entering Puerto Rico 
comes directly from Colombia or Venezuela.
    DEA Intelligence reports have shown that approximately 30% of the 
cocaine that reached Puerto Rico and the U.S. Virgin Islands was for 
local consumption and the other 70% was for transshipment to the U.S.
    According to DEA, the South American drug traffickers continue 
transporting multihundred kilograms of cocaine to Jamaica, the U.S., 
and the British Virgin Islands where it is warehoused and eventually 
transported to the U.S. Reportedly, the cocaine is broken into 
convenient smaller loads to be smuggled into the United States and 
Canada. The final movement is carried out by couriers on commercial air 
or air cargo flights, concealed shipments via containers, or via cruise 
ship passengers and crew.
    Reportedly, another 15% of the total volume of cocaine entering 
Puerto Rico transits via the eastern Caribbean Island. The island of 
Vieques, located east of Puerto Rico and Culebra located to the 
northeast, are sometimes used as storage centers. St. Maarten, 
Netherlands Antilles (NA), remains an important transit center for 
narcotics destined to the U.S. via Puerto Rico. Recently, St. Maarten, 
NA, has realized an increased presence of Dominican smugglers and 
organizers. Go-fast boats routinely leave from St. Maarten to meet 
mother ships or pick up loads that have been airdropped.
    During fiscal year 1999, Colombian drug traffickers had been 
``stashing'' or warehousing considerable shipments of narcotics in 
Haiti. Intelligence has shown that Haiti received over 50 metric tons, 
approximately 15% over the previous years. Significant airdrops and 
smuggling activities via motor vessel have been detected in and around 
Haiti during fiscal year 2000.
    International traffickers appear to have invested great efforts in 
Hispaniola over the last years and have been able to organize a supply 
and stash area for cocaine and other narcotics. Colombian drug barons 
come to Haiti mainly to exploit the many under-patrolled coastal areas 
of this impoverished country.
    Traffickers may choose to warehouse and be selective about what 
shipments they conduct, depending on the challenge posed by authorities 
at any particular time. They can choose to send a shipment of a few 
hundred kilos of cocaine by go-fast boat directly to Puerto Rico, or 
load larger quantities aboard Haitian freighters heading to the United 
States.
    Federal authorities have reported an increase in the frequency of 
alien trafficking during the past quarter. Local smugglers have been 
known to both smuggle cocaine and aliens, using the same trafficking 
patterns and vessels.
    Over the years thousands of persons from Dominican Republic have 
made a journey to the southwestern coast of Puerto Rico using small 
boats, called ``yolas'' as means of transportation. The captains of 
these ``yolas'' will load as many as they can possibly fit in them. The 
presence of large segments of Dominicans in Puerto Rico and the U.S. 
Virgin Islands has effectively created a vast manpower pool for drug 
traffickers who have been described as an ``army for hire''.
    Intelligence reports have noted that although some of the Colombian 
cartels worked primarily with their own countrymen, others continue to 
rely on Dominican nationals as transportation groups.
    While the Colombian organizations broaden their grasp on drug 
trafficking in the Caribbean, Dominican organizations continue to be 
involved in dangerous aspects of the trade. They have been 
consolidating their own interests and groups to the point of locally 
challenging Colombians, and other local associates in the drug criminal 
infrastructure. The crimes associated with their presence and influence 
in the illegal drug activity leads to an increase in murders, assaults, 
robberies, rapes, and carjackings.
    Dominican nationals have migrated throughout the Caribbean 
including Antigua, St. Maarten, Barbados, St. Lucia, and Puerto Rico. 
Although Colombians are responsible for the vast supply of cocaine and 
heroin smuggled, some Dominican groups have challenged their role in 
some drug smuggling ventures.
    The Colombian drug trafficking organizations (DTO's), utilizing 
Dominican immigrants have created an efficient drug distribution 
system. They have made the Dominican Republic their choice location for 
command and control operations. The DTO's from Colombia view the 
Dominicans as reliable business partners who have proven their ability 
to manage a complicated distribution system and expand its reach 
through aggressive marketing practices.

    Question 8. What would you rank as your most important priorities 
to counter the trafficking situation in the Caribbean?
    Answer 8. 1. The most important priority is to place more 
specialized personnel in the area of intelligence gathering.
    2. Conduct additional multi-national operations involving law 
enforcement entities from the Caribbean.

    Question 9. What criminal organizations are operating in the 
Caribbean, and what are their ties to the United States? Do you see 
evidence of La Cosa Nostra, Russian Mafia, Nigerian Crime Groups, and 
Asian triads and tongs, etc.
    Answer 9. Most of the drug trafficking organizations operating 
throughout the Caribbean are made up of Colombians and Dominicans. 
However, intelligence information obtained from different sources 
appears to indicate that other ethnic groups do have an influence in 
areas related to drug trafficking operations. For instance, although 
there are no official on-going investigations (guided by HIDTA or DEA 
CFD) involving the influence of Italians, Nigerians, or Asians, there 
is evidence of their presence regarding illegal businesses throughout 
the Caribbean. There is information that several Italian groups operate 
casinos and other businesses in the Dominican Republic which are 
allegedly used to launder drug proceeds. These groups also appear to be 
helping the Colombians move their drugs through the use of cargo 
containers.
    In Puerto Rico, on the other hand, there seems to be a subtle 
increase of Nigerians who dedicate themselves to various financial 
frauds and schemes. Additionally, during the past decade, the presence 
of illegal Asians in Puerto Rico and the U.S.V.I. has been on the rise. 
Regarding the Russian presence, intelligence compiled during the course 
of an on-going DEA investigation has identified a criminal organization 
operating in Puerto Rico and New York with direct ties to the Russian 
Mafia.Specifically, the criminal organization operating in Puerto Rico 
as well as the organization operating in New York, are purchasing 
heroin from a source of supply in Romania and Kyrgystan. Payments are 
wired through Western Union and the heroin is sent via United Parcel 
Service parcels utilizing illegal aliens. Intelligence indicates the 
source of supply has been in the business of bringing illegal aliens 
into the United States.

    Question 10. Without question the illicit drug trade has a negative 
effect in countries used as transit points. Puerto Rico's murder rate, 
much of its drug related, is reported to be the highest in the United 
States or its possessions.
    Answer 10. For a long time Puerto Rico was used mainly to transship 
drugs to the U.S. by the Colombians. When the Dominicans started to 
take over as contractors for the transportation of drugs, a greater 
percentage of the cocaine made its way into the island of Puerto Rico. 
Dominicans requested 20% to 30% of the loads as payment for their 
services. The increased availability of drugs in Puerto Rico accounts 
nowadays for approximately 90% of all the homicides perpetrated on the 
island. However, corruption of government officials and police forces 
is not as prevalent in Puerto Rico as in other island/nations within 
the Caribbean corridor.
    The Western Caribbean continues as the primary threat corridor for 
non-commercial aircraft movement and go-fast activity. This is 
primarily due to the lack of resources and corruption, especially 
within the countries of Haiti and Jamaica, where certain government and 
law enforcement officials are alleged to be involved in drug 
trafficking. The economic upheaval these two countries are submerged 
in, make any citizen a possible resource for the Colombians and other 
local drug traffickers. Substantial amounts of U.S. currency go through 
the Port-au-Prince International Airport and intelligence information 
indicates that Jamaica is overwhelmingly being utilized for storing 
drug shipments. Since the termination of Operation Frontier Lance II a 
substantial increase in both seaborne and airborne narcotics smuggling 
activities has been detected throughout the Western Caribbean corridor. 
Lack of assets and advanced warning continues to be a significant gap, 
hindering effective staging for detection, monitoring, and 
interdiction.

    Question 11. Cuba has been found to be a state which sponsors 
terrorism. Do you think Cuba's involvement in drug trafficking is 
simply a criminal enterprise or is it being used by the government to 
raise currency to back terrorist actions?
    Answer 11. DEA has no current information to suggest that senior 
Cuban government officials are involved in the drug trade and/or 
benefit from drug-related corruption. Furthermore, DEA has no 
information that senior Cuban government officials have engaged in drug 
trafficking to raise currency to back terrorist actions.

    Question 12. In 1998, the Congress provided 60 additional DEA 
agents for the Caribbean Division, although they were not requested in 
the Presidents Budget. How many of these agents were assigned to work 
outside of South Florida.
    Answer 12. In 1998 the 60 additional agents were assigned as 
follows: 19 agents assigned to the San Juan Divisional office, 40 
agents assigned to the Miami Field Division, and one agent assigned to 
DEA Headquarters, Domestic Operations Caribbean.

    Question 13. What nations in the Caribbean need to either establish 
or update extradition treaties with the United States?
    Answer 13. Most of the nations in the Caribbean have established 
extradition treaties with the United States, with the exception of 
Haiti. Suriname has a treaty in place from previous Holland rule, but 
will not extradite their nationals at this time. The Netherlands 
Antilles and Aruba have functioning extradition treaties. Barbados and 
all the eastern Caribbean states now have established extradition 
treaties, with the most recent addition being Dominica. In 1998, the 
Dominican Republic signed an extradition treaty with the United States 
that is presently being put into action. 15 people have been extradited 
from the Dominican Republic since the treaty took effect. Martinique, 
Guadeloupe, the French side of St. Martin, St. Barthelemy, and French 
Guiana are subject to French law and all international conventions 
signed by France.

    Question 14. The number of DEA wire intercepts in the Caribbean 
increased from 0 in 1995 to 30 in 1998. Are these wire intercepts 
proving effective and is their use continuing to expand?
    Answer 14. In 1999, 36 wire intercepts were used, an increase of 
six from 1998. Since 1995, there has been an increase of wire 
intercepts every succeeding year. The use of the Title III wire tap is 
an effective method to gather reliable information to prosecute 
criminals and to obtain intelligence in furtherance of our drug 
interdiction efforts.

    Question 15. Narcotics trafficking has a tendency to breed 
corruption and to serve as a cancer on good government. It can even act 
as a destabilizing force on the government which is already in danger 
of collapsing. Are there any nations in the Caribbean that you would 
characterize as either having been turned into nations run by criminals 
or that are in danger of becoming such.
    Answer 15. Every nation/territory within the area of operation of 
the CFD has experienced official corruption in one form or another as a 
result of drug trafficking throughout the region. The situation in 
Haiti stands out as particularly grim. With a history of smuggling 
through the island of Hispaniola (shared by Haiti and the Dominican 
Republic), the instability of the Haitian political system, and the 
grinding poverty in which the majority of its citizens live, Colombian 
traffickers have found fertile ground on which drug trafficking and 
corruption can flourish.
    Drug monies have corrupted Haitian society through the following 
methods:
    1. Financing of political campaigns. Intelligence has indicated 
that major Haitian and Colombian traffickers have contributed large 
sums of money to the campaigns of Haitian politicians throughout the 
country. Investigations are continuing in order to ascertain to what 
level the corruption has risen.
    2. Corruption of Law Enforcement agents and personnel at the 
airports and seaports. This form of corruption represents the most 
visible form of official acquiescence, both passive and active, to drug 
trafficking through Haiti. Low-level Haitian police agents have been 
involved in transporting drug shipments that have been air-dropped over 
land in Haiti as well as shipments that have arrived via go-fast 
vessels. Law enforcement personnel have also served as escorts to 
traffickers both in transporting drugs over land in Haiti as well as 
through the Port-au-Prince International Airport. Allegations have 
arisen as to law enforcement personnel serving as sources of 
information for traffickers in regard to upcoming enforcement 
operations. Investigations are continuing in order to ascertain to what 
level the corruption has reached.
    It is mainly the lack of resources dedicated to fighting drug 
trafficking throughout Haiti that has made the nation so attractive to 
Colombian traffickers. The vast, unpatrolled coastline and the 
inadequate security measures at the two international airports have 
often made official corruption unnecessary.
    The Netherlands Antilles is another area in which official 
corruption has been problematic. Allegations have arisen against low-
level enforcement personnel in relation to protected shipments arriving 
via go-fast vessels and leaving via commercial air and go-fast vessels. 
Law enforcement personnel have also served as sources of information 
for the traffickers. Nevertheless, the Curacao Country Office reports 
that excellent working relationships have developed with important 
local counterparts.
    The situation is similar in Jamaica, though drug-related corruption 
in the area of political campaigns if rife. Traffickers are 
particularly useful to police in the area of non-drug related crime. 
Tourism is the most important industry in Jamaica and murders and 
street crime with discourage vacations to the island. (The traffickers 
often provide information to the police that helps them solve and 
prevent crimes in the major north coast tourist resorts).
    The traffickers have long had officials of the Jamaican 
Constabulary Force (JCF) on their payrolls and they are often seen 
having lunch together. This corruption ensures the traffickers are 
aware of any potential actions against them and to potentially make 
them aware of informants that they (the traffickers) may be dealing 
with. While top officials to the JCF may not be tainted, the people 
underneath them generally are, though not all of the same degree.
    The traffickers have long been active in Jamaica's two main 
political parties, the Jamaica Labour Party (JLP) and the People's 
National Party (PNP). Many of the posses (drug gangs) of today started 
as armed supporters and security personnel of the JLP and PNP. From 
there it was a short step into the world of drug trafficking. The 
posses are active abroad as well, in cities such as New York, London, 
and Toronto. In addition, large scale traffickers generously donate 
funds to both parties.
                                 ______
                                 

    Responses of John C. Varrone to Questions From Senator Thurmond

    Question 1. Cooperation from countries in the Caribbean is critical 
to successful interdiction, especially given their limited resources. 
In some of these countries, the United States does not have bilateral 
treaties or agreements regarding counterdrug efforts, such as to enter 
their waters. What is the status of efforts to achieve or strengthen 
drug agreements with the Caribbean nations?
    Answer 1. The primary tool used by the Customs Service to enhance 
our working relationship with our counterparts in law enforcement in 
the Caribbean is the Caribbean Customs Law Enforcement Council (CCLEC). 
CCLEC was established in the early 1970s as an informal association of 
Customs Administrations within the Caribbean region. Its principal 
objective was the exchange of information on smuggling and helping the 
smaller regional administrations adjust to the new threat of organized 
drug trafficking through the region. In 1990, 28 members of the CCLEC 
signed a Memorandum of Understanding regarding mutual assistance and 
cooperation for the prevention and repression of Customs offenses in 
the Caribbean zone. Since that time, the membership of the CCLEC has 
grown to 37 nations.
    One of the early steps taken by the Council was the establishment 
of the Caribbean Enforcement Network (CEN), which is a system that 
supports the exchange of information between members. Each member has 
nominated an Enforcement Liaison Officer (ELO) who is generally an 
experienced enforcement or investigative officer at management level. 
Enforcement communications and other activities are originated with the 
ELO. In partnership with the World Customs Organization (WCO), the 
Joint Intelligence Office (JIO) was created within the U.S. Customs 
Service Communications Center in San Juan, Puerto Rico, to coordinate 
all regional activity in the CEN and to serve as the communications 
center of support for the ELOs.
    CCLEC continues to assist its members in their counter-narcotics 
efforts through the following current key projects:
    The Regional Clearance System (RCS) is an information system which 
monitors the movement of small vessels and aircraft in the region. The 
aim of the project is to develop intelligence which will direct 
enforcement activity and detect smuggling. Phase one of the training 
and installation is underway.
    The Regional Airport Anti-Smuggling Initiative (RAASI), which began 
in 1996, addresses the smuggling threats at regional airports. This 
drug trafficking through Caribbean airports, often involving Caribbean 
nationals, poses a significant threat to communities in the region. 
RAASI examines systems and controls currently in place at the major 
Caribbean hub airports, identifies strengths and weaknesses, and 
recommends the implementation of effective countermeasures.
    Based on an agreement negotiated by the State Department, the 
Customs Service has been operating from a forward operating location 
(FOL) in Aruba, Netherlands Antilles, since April 1999. This important 
FOL replaced our operation at Howard Air Force Base, Panama, which 
closed in April 1999.
    We also work with Operation Bahamas, Turks and Caicos (OPBAT), a 
joint DEA-Bahamian operation based in Nassau. Assets from the Miami or 
Jacksonville Air and Marine Branches are launched when targets are 
identified. We also have sent Senior Detection Systems Specialists to 
our Embassy in Nassau on a TDY basis to help coordinate OPBAT 
operations. Customs Service P-3 aircraft assist in tracking targets in 
the Bahamian area. We have a large presence in Puerto Rico at the 
Caribbean Air and Marine Branch (CAB) and its subordinate units as well 
as at our Drug Intelligence Operations Center in Puntas Salinas, Puerto 
Rico. The CAB works closely with the Puerto Rico Air National Guard.

    Question 2. The General Accounting Office has often recommended 
that counter narcotics agencies need to develop a centralized system 
for recording and sharing lessons learned by various agencies while 
conducting their operations. Do the federal agencies involved in 
Caribbean interdiction operations have a formal arrangement for 
recording information and sharing lessons learned?
    Answer 2. Federal agencies involved in Caribbean interdiction 
operations currently have effective informal methods for recording 
information and sharing lessons learned. Following interagency 
operations, Joint Interagency Task Force East conducts a debrief or 
``hot wash'' at the action officer level to capture lessons learned. An 
after action report that discusses important issues is distributed to 
all law enforcement addresses.
    High Intensity Drug Traffic Area (HIDTA) meetings are conducted 
monthly in Puerto Rico to discuss law enforcement issues in Puerto Rico 
and the U.S. Virgin Islands. All federal law enforcement agencies, the 
National Guard and United Forces of Rapid Response (FURA) or 
Commonwealth police have representation.
    Following joint operations such as Operation Bahamas, Turks and 
Caicos (OPBAT), an after action report is drafted and distributed to 
the participating agencies.

    Question 3. While trafficking along the Southwest Border may have 
diminished slightly, I do not think anyone would contend that we are in 
a position to remove the considerable counterdrug assets located in 
that region. That said, it is obvious that narcotics traffickers are 
now looking to exploit the relatively open Caribbean to transport drugs 
into the United States. My question to each of you is, ``How many more 
assets are required to fight the flow of drugs in the Caribbean without 
sacrificing the counterdrug infrastructure we have created on the 
Southwest Boarder?''
    Answer 3. There is clearly a need to strike a balance between 
infrastructure needs in different regions that affect one another. 
Several critical elements of the Caribbean counterdrug effort are 
unique. With current estimates that as much as 90% of the cocaine flow 
has a maritime component (airdrops to vessels or vessel transportation) 
in the Caribbean, there is a shortage of modern Maritime Patrol 
Aircraft (MPA).
    The Customs Service operates detection and monitoring (D&M) 
aircraft, interceptors, maritime patrol aircraft, and a variety of 
vessels in the Caribbean. Our D&M assets are tasked to U.S. Southern 
Command (SOUTHCOM), as are the Customs interceptor aircraft based in 
Aruba. MPA, interceptor aircraft and vessels are assigned to Customs 
Caribbean Air and Marine Branch. They are based at several locations in 
Puerto Rico and the U.S. Virgin Islands. Additional assets and 
personnel from other Air and Marine Branches continuously augment our 
forces in the Caribbean.
    The Customs Service has issued Requests for Information to industry 
soliciting data on new MPA and multi-role interceptor aircraft. 
Response from manufacturers was brisk, with several platforms in 
production meeting the criteria specified. Customs is examining these 
as replacements for aircraft in the existing fleet as part of our 
comprehensive modernization plan. When complete, the effectiveness of 
these replacement aircraft will allow us to safely and efficiently 
protect the Continental United States as well as meet our expanding 
obligations in the source and transit zones.
    The Customs Service vessel inventory in the Caribbean is adequate 
to meet our existing missions, but most of the vessels have exceeded 
their serviceable life. As identified in the Customs Air and Marine 
Interdiction Division comprehensive modernization plan, each type of 
vessel in the current inventory has a serviceable life limit. In order 
to ensure safe and efficient operation, replacement is required when 
the vessel reaches its service life limit.
    The Customs Service needs more vessel operators and aircraft 
crewmembers in order to meet our current commitments and increase 
operations in the Caribbean. The Customs Service has been recruiting to 
fill existing vacancies and has a 5-year plan to increase the number of 
vessel operators to accommodate an expanded maritime mission.
    In order to meet our drug interdiction responsibilities in the 
Caribbean, without sacrificing the counterdrug infrastructure we have 
created on the Southwest Border, the Customs Service needs to:
    Acquire new Maritime Patrol Aircraft;
    Increase manpower to support Caribbean operations;
    Acquire new multi-role interceptor aircraft; and
    Acquire/refurbish replacement vessels.

    Question 4. Would you please comment on what Caribbean nations are 
cooperative and what nations are uncooperative in fighting drug 
trafficking?
    Answer 4. Based on our expertise and our interdiction perspective, 
all of the Caribbean nations cooperate to some extent. Internal 
politics and resources determine the amount of cooperation. Eradication 
and interdiction operations have been conducted with many of the 
Caribbean nations. Also, many have received training and equipment to 
improve their counterdrug capabilities.
    Because of political instability, Haiti has no credible law 
enforcement interdiction response to airborne drug movements but allows 
overflight of U.S. interdiction aircraft. The Haitian Coast Guard is 
ineffective because it is limited to operations in the Bay of Gonave 
and intelligence indicates that maritime drug smuggling occurs on the 
southern coast of Haiti.
    A weak economy has impaired the ability of the Cuban government to 
effectively respond to the smuggling threat. U.S. Government aircraft 
do not have overflight authority to transit Cuba or its territorial 
waters but, Cuban border guards have responded to U.S. Coast Guard 
requests to pursue smuggling vessels.
    The Bahamian government has historically worked well with the 
United States in fighting drug trafficking. When Howard AFB closed, 
U.S. interdiction assets moved to Aruba and Curacao with minimal impact 
to the operational tempo. The government of Trinidad and Tobago has 
actively cooperated in fighting drug trafficking by sharing information 
and participating in the United Counterdrug seminars.

    Question 4a. Also, please address what effect Venezuela's refusal 
to allow the United States overflight access, as well its general 
resistance to our drug fighting efforts, is having on our ability to 
pursue traffickers?
    Answer 4a. The denial of Venezuelan overflight authorization for 
Customs Service aircraft has significantly decreased successful end-
games in Colombia and has resulted in no end-games in Venezuela. 
Interagency data indicates that South American airborne drug smugglers 
are increasing their use of Venezuelan airspace during transits between 
Colombia and the transit zone. Smugglers flying between Colombia and 
other South American countries also routinely use Venezuelan airspace. 
Some air smugglers have been observed using Venezuelan airstrips as 
recovery points after completing drug shipments. Customs Service P-3 
AEW aircraft patrolling in Colombia have often detected and tracked 
aircraft entering Colombia from Venezuela. Those aircraft were observed 
landing near the border, offloading and returning quickly to Venezuela. 
Opportunities to gather intelligence and support Venezuelan counter-
drug programs were lost because requests for overflight were denied.

    Question 5. I am concerned that we are not doing as good a job as 
we could when it comes to strategic planning and information sharing. 
What steps can we take to improve in these areas?
    Answer 5. The Customs Service is an active participant in several 
strategic planning mechanisms that we believe enhance the effectiveness 
of our counter-drug operations. For instance, the Customs Service 
participates in the annual and semi-annual joint planning conferences 
hosted by the United States Interdiction Coordinator (USIC). As you 
know, the Customs Service provides a substantial percentage of the 
detection and monitoring assets that are deployed in the Source and 
Transit Zones. These joint planning conferences provide strategic 
guidance to agencies operating in the Source and Transit Zones to 
insure that common goals are achieved.
    More recently, the Customs Service has been working with other 
agencies on the development of an Arrival Zone Interdiction Plan 
(AZIP). A key element of the AZIP has been identified as the creation 
of an Arrival Zone Interdiction Coordinator (AZIC). The AZIC will be 
responsible for coordinating all of the interdiction operations in the 
Arrival Zone and will complement the role of the USIC in the Source and 
Transit Zones. The AZIC will be responsible for insuring that 
interdiction operations in the Arrival Zone further the strategic goals 
of the National Drug Control Strategy.
    With respect to information sharing, the Customs Service is an 
active participant in the High Intensity Drug Trafficking Area 
intelligence coordination center in San Juan, Puerto Rico, which also 
has representatives from the other law enforcement agencies in Puerto 
Rico. In addition, the Customs Service has a full time liaison to both 
the USIC and Joint Interagency Task Force (East).

    Question 6. It seems that without having good information as to 
when, where, and how drugs will be shipped, we are essentially 
operating blindly. What steps can be taken to improve intelligence 
gathering efforts in the source zone?
    Answer 6. The Customs Service traditionally has relied on the 
intelligence gathering efforts of the Drug Enforcement Administration 
and the intelligence community all of whom have extensive networks and 
responsibilities for collecting drug related intelligence overseas. 
Customs has extensive relationships with DEA and the intelligence 
community that facilitate the movement and exchange of intelligence on 
activities in the Source and Transit Zones that may be of interest to 
Customs.
    More recently, The Customs Service has signed a new Memorandum of 
Understanding with the DEA, under the auspices of the General 
Counterdrug Intelligence Plan, that permits the placement of Customs 
Service staffed foreign intelligence teams in DEA foreign offices. 
Customs Service Foreign Intelligence teams are multidiscipline teams 
that have the sole responsibility of collecting information on drug 
smuggling in the countries where they are assigned. The Customs Service 
is in the process of deploying these teams in the Source Zone to 
collect intelligence and information that can be used by the Customs 
Service for interdiction and enforcement purposes. The Customs Service 
has fielded three pilot teams in the past 10 months, including two 
teams to Mexico and one team to Ecuador.
    The Source Zone continues to be a high priority for the Customs 
Service particularly as it relates to information on impending drug 
shipments and/or information that could assist Customs Service aircraft 
in their efforts to detect and monitor ongoing drug operations. The 
Customs Service will continue to actively purse information in the 
Source Zone by pursuing all of its avenues of information including the 
deployment of foreign intelligence teams.

    Question 7. I understand that one of the trends law enforcement is 
beginning to notice is the merging of criminal enterprises. For 
example, in the past, one organization might smuggling drugs, while 
another organization might smuggling migrants, but today, one 
organization might smuggle both. What sort of merging of criminal 
enterprises are you seeing in the Caribbean?
    Answer 7. Our investigative and seizure activity has shown that 
there has been a limited amount of expansion on the part of criminal 
groups that have moved into new areas of criminal activity.
    One recent example has been the expansion of Dominican smuggling 
groups into Ecstasy smuggling to the United States. Our investigations 
currently indicate that the Dominican Republic is being used as a 
transit point for European origin Ecstasy that is being smuggled to the 
United States. We have also recently documented an instance in which 
Dominican smuggling groups have smuggled cocaine to Europe where it has 
been exchanged for Ecstasy that was smuggled to the U.S.
    We have also received periodic intelligence that Haitian cocaine 
smuggling groups are also involved in smuggling illegal aliens to the 
U.S. In a 1999 seizure in Fort Myers, Florida, Customs agents seized 56 
pounds of cocaine and arrested five illegal aliens who had arrived on a 
private aircraft from Haiti.

    Question 8. What would you rank as your most important priorities 
to counter the trafficking situation in the Caribbean?
    Answer 8. Customs Air and Marine Interdiction Division has 
addressed the following priorities to counter the trafficking situation 
in the Caribbean:
    Acquire new Maritime Patrol Aircraft;
    Increase manpower to support Caribbean operations;
    Acquire new multi-role interceptor aircraft; and
    Acquire/refurbish replacement vessels.
    With current estimates that as much as 90% of the cocaine flow has 
a maritime component (airdrops to vessels or vessel transportation) in 
the Caribbean, there is a shortage of modern Maritime Patrol Aircraft 
(MPA). The Customs Service currently operates a fleet of DOD surplus 
aircraft converted for the maritime patrol mission. To enhance safety, 
efficiency, and effectiveness, the Customs Air and Marine Interdiction 
Division comprehensive modernization plan identifies the need for a 
new, integrated maritime patrol aircraft.
    The Customs Service needs more vessel operators and aircraft 
crewmembers in order to meet our current commitments and enhance 
operations in the Caribbean. Customs has been recruiting to fill 
existing vacancies and has a 5-year plan to increase the number of 
vessel operators to accommodate an expanded maritime mission.
    The current Customs Service fleet of interceptor aircraft were 
acquired an average of 13 years ago. Their primary mission was 
detection and tracking of low and slow General Aviation targets common 
to the Southwest Border. Changing smuggler profiles and tasking 
throughout the source and transit zones have necessitated a 
reevaluation of mission capabilities in our interceptor aircraft. To 
enhance safety, efficiency, and effectiveness, the Customs Air and 
Marine Interdiction Division comprehensive modernization plan 
identifies the need for a new, multi-role interceptor aircraft.
    The Customs Service vessel inventory is adequate to meet our 
existing missions, but most of the vessels have exceeded their 
serviceable life. As identified in the Customs Air and Marine 
Interdiction Division comprehensive modernization plan, each type of 
vessel in the current inventory has a serviceable life limit. In order 
to ensure safe and efficient operation, replacement or refurbishment is 
required when the vessel reaches its service life limit.

    Question 9. Your agencies are having difficulty getting agents to 
accept assignments in Puerto Rico. Would making Puerto Rico an overseas 
assignment for agents help you meet your staffing needs in that 
territory?
    Answer 9. The Customs Service supports in concept the idea of 
making Puerto Rico a foreign assignment in order to attract qualified 
candidates to fill critical vacancies. Since there is not a 
``diplomatic mission'' in Puerto Rico, designating the island as a 
foreign post of duty may pose regulatory or legal obstacles.
    In order to address recruitment and retention issues on a more 
immediate basis, on March 13, 2000, Customs approved a Rotation Policy 
for all of our hardship locations, including Puerto Rico and the U.S. 
Virgin Islands. Under this new policy, Office of Investigations 
personnel who have been assigned to a hardship location for 3 
continuous years are eligible for a government funded transfer to a 
non-hardship location.
    We have begun the implementation of this policy and have identified 
approximately 130 Special Agents who are eligible for transfers under 
the Policy. We have begun the process of initiating moves under the 
policy, but we anticipate that, with current funding, it will take 
several years to fully implement the policy and resolve the backlog of 
moves.
    In addition, all personnel assigned to Puerto Rico receive a 10 
percent cost of living allowance and pay taxes to the Commonwealth of 
Puerto Rico.

    Question 10. I understand that the DOD wants Customs to take over 
the Coronet Nighthawk program. Does Customs want to assume this mission 
and what assets would you need to perform this operation?
    Answer 10. The Customs Service would be willing to take over the 
Coronet Nighthawk program if adequate funding is provided. We believe 
that Customs assumption of the program would benefit the overall U.S. 
counternarcotics program since it would allow us to cover the major 
transshipment corridors in the Caribbean. We also hope that the removal 
of F-16 military aircraft from Curacao would result in Venezuela 
reconsidering its position on the issue of overflight clearance. As an 
interim measure, we would perform the mission using aircraft already in 
our inventory with TDY crews. However, to perform this mission 
effectively on a permanent basis, we would require funding for a number 
of items. These include:
    Purchase two replacement multi-role interceptor aircraft;
    Hire 14 new personnel (3 crews);
    Upgrade and expand our facility at Aruba;
    Maintenance support; and
    PCS costs.

    Question 11. What are Customs current marine and aviation assets 
operating in the Caribbean area and have these numbers gone up or down 
in the last 10 years?
    Answer 11. At the current time, we have 27 vessels, including 15 
interceptors and 8 utility, as well as 10 aircraft assigned to the 
Caribbean Air and Marine Branch and its subordinate units. We should 
also point our that personnel and assets from other Air and Marine 
Branches are used to augment our efforts in the Caribbean as required. 
The majority of this additional support comes from the Miami and 
Jacksonville Air and Maine Branches. In February 2000, the Customs 
Services began P-3 operations from Jacksonville, Florida, resulting in 
increased radar coverage in the Caribbean region. There has been a 
significant increase in the number of Customs assets and personnel 
assigned to the Caribbean region over the last 10 years. The Caribbean 
Air and Marine Branch, which was established in 1986 as a 2-man unit, 
because a branch in 1992 and the assets and personnel allocated to that 
location have grown steadily ever since. The number of vessels assigned 
to the Caribbean area has risen from 11 in 1990 to the current 27. 
Although the number of vessels assigned to the Caribbean is adequate 
for the current tasking, many of these vessels have exceeded their 
serviceable life limit and must be refurbished or replaced.

    Question 12. How will trade agreements between the United States 
and Caribbean nations impact efforts to fight drug trafficking?
    Answer 12. The overall impact of trade agreements in the Caribbean, 
or anywhere else, will be to increase the flow of goods from Caribbean 
countries to the U.S. From the Customs Service perspective, this means 
that we will be faced with an increase in the volume of cargo that 
passes through our custody and control and, therefore, the opportunity 
to smuggle will increase. In order to minimize the ability for drug 
smugglers to exploit this opportunity, however, we are engaged in a 
number of programs that focus on working with private industry to 
reduce the possibility that legitimate cargo can be compromised by drug 
smugglers.
    Under the auspices of our industry Partnerships Program, for 
example, the Customs Service provides training and conducts site 
surveys for transportation companies and foreign manufacturers in order 
to enhance their internal controls so that drug smugglers cannot 
introduce drug into otherwise legitimate cargo.

                                <all>

</pre></body></html>
